U.S. Department of Justice
Office of the Inspector General
Evaluation and Inspections Division




                          Review of the Organized 

                          Crime Drug Enforcement 

                         Task Forces Fusion Center 

                                      March 2014




                                      I-2014-002 

                             EXECUTIVE SUMMARY 



INTRODUCTION

       This review examined the operations of the Organized Crime Drug
Enforcement Task Forces (OCDETF) Fusion Center (OFC) and assessed
its process for sharing its analytical products. The OFC is a multi-
agency intelligence center that produces intelligence products in
response to requests from federal investigators (requesters). The Drug
Enforcement Administration’s (DEA) Special Operations Division (SOD)
supports the OFC in developing these products.1

ISSUES THAT AROSE DURING THE REVIEW

       The Office of the Inspector General (OIG) learned during the course
of the review that OFC management took actions that created difficulties
for us in obtaining information from OFC employees and in ensuring that
interview responses were candid and complete.

       We had issues in obtaining documents directly from OFC
personnel. Further, two Federal Bureau of Investigation (FBI) employees
detailed to the OFC, who met with us to describe their concerns about
the OFC’s operations, told us that thereafter they had been subjected to
retaliation by the OFC Director. The OIG recently completed its review of
these retaliation allegations and concluded there were reasonable
grounds to believe that actions were taken against the FBI employees in
reprisal for making protected disclosures. We have referred our findings
to the appropriate authorities for adjudication and resolution under
applicable law.

      Given this troubling conduct, we cannot be sure we obtained
complete information from or about the OFC or that other OFC
employees may not have been deterred from coming forward and
speaking candidly with us. The results of our review reflect the findings
and conclusions that we were able to reach based on the information
that was made available to us.




       1  SOD is a DEA-led multi-agency intelligence and coordination center, and its
collaboration with the OFC accounts for a small portion of its operations. The scope of
this review did not include a review of SOD’s operations or use of information apart
from its involvement with the OFC.


U.S. Department of Justice                                                                i
Office of the Inspector General
Evaluation and Inspections Division
RESULTS IN BRIEF

       Although we found that OFC products may provide information
that is valued by the investigators and prosecutors who use them, the
OIG review identified deficiencies in the OFC’s operations that could limit
its contribution to the OCDETF Program’s effectiveness.

During the period of our review, the working relationship between
OFC leadership and the FBI was strained.

       Most staff at the OFC are detailees from member agencies, with the
majority from the DEA and the FBI. We found that there was a strained
working relationship between the leadership of the OFC (the Director of
which was a DEA employee during the period of our review) and FBI
employees, including detailees to the OFC and an OFC Deputy Director.
We learned that, as a result of concerns expressed by FBI detailees to the
OFC, the FBI prepared a report that, among other findings, reflected the
FBI’s belief that it devoted more resources to the OFC than it received
back in work products, while other OFC member agencies, including the
DEA, received more resources from the OFC than they devoted to the
center. Thereafter, the FBI informed the OFC that it was planning to
require that all FBI requests to the OFC could be assigned only to FBI
Intelligence Analyst detailees. In response, the OFC suspended all FBI
employees’ access to the OFC database for approximately 6 weeks.
Access was restored after a temporary agreement was reached that
provided that FBI requests to the OFC would be handled by FBI
Intelligence Analysts, that the number of DEA Intelligence Analysts
working at the OFC would increase, and that the memorandum of
understanding between the FBI and the OFC would be revised.2

      We believe that a dispute of this significance is a cause for serious
concern and it should never have been allowed to affect the operations of
the OFC.




       2  In response to a working draft of this report, the OCDETF Executive Office,
DEA, and the Department of Homeland Security’s Immigration and Customs
Enforcement indicated in substance that there were serious differences of opinion
between the FBI and the OCDETF Executive Office and other OFC member agencies
relating to the FBI’s compliance with its obligations under the OFC program and that
the OCDETF Director never authorized the FBI’s plan. Because we learned much of
this information after we concluded our field work, we were unable to assess the basis
for any such dispute or how it may have escalated to the point that it had an impact on
the relationship between the OFC member agencies.


U.S. Department of Justice                                                            ii
Office of the Inspector General
Evaluation and Inspections Division
The OFC has not addressed key issues that are keeping it from fully
accomplishing its mission.

         We found that the following aspects of the OFC’s prioritization and
information sharing procedures have detracted from the OFC’s efforts to
fulfill its mission.

       Prioritization of investigations with a nexus to high-value drug
trafficking targets: An important aspect of the OCDETF Program’s
mission is to disrupt and dismantle Consolidated Priority Organization
Targets (CPOT), defined as the international “command and control”
elements of the most significant drug trafficking and money laundering
organizations. However, our review found that the OFC does not
prioritize requests from investigations linked to CPOTs, nor does the OFC
have procedures in place to prioritize its work based on the significance
of the target. We also found that OCDETF field investigators have limited
awareness of the intelligence the OFC gathers on the CPOTs.

      Coordination between the OFC and SOD: The OFC is supposed to
collaborate with SOD to process requests for OFC products. Specifically,
SOD processes incoming requests and disseminates the resulting
products to the requesters, while the OFC researches and writes the
products.3 However, SOD staff members often have unrelated
responsibilities that may prevent the OFC from always ensuring a timely
response to requests for information. Furthermore, there is no formal or
informal understanding between the OFC and SOD about whether and
how SOD communications data (such as wiretap information), which is
not available to the OFC, may be used appropriately to add value to OFC
products.4 We also found that the OFC is unable to reliably track OFC
product workflow data from SOD.

       Guidance about sharing OFC products with prosecutors: Only
federal investigators are allowed to request OFC products and, in the
absence of specific guidance, the investigators we interviewed were not
consistent as to whether they shared these products with the federal
prosecutors assigned to their cases. There may be several reasons for
this, but according to an OFC official, some investigators have
interpreted language OFC includes on the cover page of its products to
prohibit them from sharing OFC information with the prosecutors.

       3 In this report, we use the term “requesters” to describe federal investigators

requesting information from the OFC on investigative targets, including case information
from other law enforcement agencies that may be investigating the same targets.

       4We did not examine the nature or appropriateness of SOD’s policies,
procedures, or internal controls for information collection and sharing.


U.S. Department of Justice                                                           iii
Office of the Inspector General
Evaluation and Inspections Division
Workflow inefficiencies may impede the OFC’s ability to maintain
the quality and timeliness of its products.

       The demand for OFC products increased from 938 requests for
products in fiscal year (FY) 2006 to 4,683 requests in FY 2012.
Requesters told us that they generally received the products in a timely
fashion, but in a sample of products we analyzed, we identified some that
exceeded the OFC’s timeliness threshold. We also found several
workflow inefficiencies that, if corrected, could improve the operational
effectiveness of the OFC.

       Shortcomings in the staffing and product approval process: We
found that several Intelligence Analyst positions had been left vacant for
lengthy periods of time, including one position that had been vacant for
over 6 years, at the OFC, which depends on its member agencies for its
staffing resources. This has resulted in increased workloads for existing
analysts and longer product processing times. In addition, some OFC
Intelligence Analysts have little or no law enforcement experience, and
OFC staff and users we interviewed told us that such analysts are often
less effective. We also found that there are inconsistent approval
standards for OFC work products across and within OFC units and that
product disapprovals resulting from minor corrections can lead to
lengthy approval processes and delays.

       Policies governing communication with requesters: Our review
found that OFC analysts do not always confer with requesters, as
required by OFC policy. Contacting users to clarify requests ultimately
saves time in preparing products and ensures that the recipients get the
information they need. However, OFC staff told us that making contact
with requesters is an ongoing challenge because requesters often cannot
easily be reached. We found that there is no policy in place informing
analysts how to proceed when this occurs.

       Meaningful feedback: We found that the OFC has not established
an effective system for gathering feedback and data from requesters
regarding the value of OFC products. The OFC’s feedback survey is sent
to requesters before they can know whether the product helped their
investigation and it is rarely returned without follow-up from the OFC.
We believe that a better feedback mechanism could help the OFC
ascertain what requesters value about its products and services, and
how best to improve them.

       In this report, we make 10 recommendations to improve the
efficiency and effectiveness of the OFC’s operations and the usefulness of
its products.


U.S. Department of Justice                                               iv
Office of the Inspector General
Evaluation and Inspections Division
                                TABLE OF CONTENTS 



 BACKGROUND ................................................................................. 1
 

 PURPOSE, SCOPE, AND METHODOLOGY OF THE OIG REVIEW ...... 8
 

 RESULTS OF THE REVIEW............................................................. 11
 

   During the period of our review, the working relationship
   between OFC leadership and the FBI was strained........................ 11
 

   The OFC has not addressed key issues that are keeping it
   from fully accomplishing its mission. ............................................ 13
 

   Workflow inefficiencies may impede the OFC’s ability to
   maintain the quality and timeliness of its products. ...................... 25
 

 CONCLUSION AND RECOMMENDATIONS ...................................... 40
 

 APPENDIX I: ADDITIONAL BACKGROUND ..................................... 44
 

 APPENDIX II: LIST OF ACRONYMS ................................................ 51
 

 APPENDIX III: OCDETF RESPONSE TO DRAFT REPORT ................ 52
 

 APPENDIX IV: OIG ANALYSIS OF OCDETF RESPONSE .................. 57
 




U.S. Department of Justice
Office of the Inspector General
Evaluation and Inspections Division
                                   BACKGROUND 



       Established by the Organized Crime Drug Enforcement Task
Forces (OCDETF) Program in 2004, the OCDETF Fusion Center (OFC) is
a multi-agency intelligence center designed to provide intelligence
information to investigations and prosecutions focused on disrupting and
dismantling drug trafficking and money laundering organizations.5
According to OCDETF Program officials, the OFC mission is to enhance
the OCDETF Program’s effectiveness in disrupting and dismantling
targeted criminal organizations by providing actionable, operational
intelligence products to investigators to facilitate the furtherance of drug
and related financial investigations, and to enhance the identification of
overlapping investigations (deconfliction) and coordination of drug and
related financial investigations and prosecutions.6

       The OFC aggregates the investigative and regulatory information
and intelligence its partner agencies provide to it, and using the
analytical abilities of its workforce and database technology, it analyzes
that information to develop intelligence products on investigative
targets.7 As of November 2013, the OFC had partner relationships with
25 agencies and organizations, including the International Organized
Crime Intelligence and Operations Center (IOC-2).8 (See Appendix I for a

        5 The OCDETF Program was established in 1982 to mount a comprehensive

attack against organized drug traffickers. It is the centerpiece of the Attorney General’s
strategy to reduce the availability of drugs by disrupting and dismantling major drug
trafficking and money laundering organizations and related criminal enterprises. The
Program operates nationwide, combining the expertise of numerous federal agencies
and state and local law enforcement agencies.

       6  Strategic deconfliction seeks to prevent duplicative work by searching
available data to determine if multiple law enforcement agencies are investigating the
same target. Tactical deconfliction seeks to prevent personnel from two or more law
enforcement agencies from unwittingly encountering each other during a law
enforcement operation.

       7  According to the OFC, a target can be an individual or business that is the
subject of an investigation, but may also refer to an address, bank account, license plate,
organizational name, telephone number, e-mail address, or Social Security number
related to the investigation that an investigator requests additional information on.

       8  In May 2009, the Attorney General’s Organized Crime Council established the
IOC-2 to marshal the resources and information of federal law enforcement agencies
and prosecutors to collectively combat the threats posed by international criminal
organizations. In recognition of the demonstrated interrelationship between criminal
organizations that engage in illicit drug trafficking and those that engage in
international organized crime involving a broader range of criminal activity, the IOC-2
                                                                                  (Cont’d.)
U.S. Department of Justice                                                               1
Office of the Inspector General
Evaluation and Inspections Division
list of the OFC partner agencies and organizations.) The OFC also is
responsible for compiling intelligence on Consolidated Priority
Organization Targets (CPOT), the international “command and control”
elements of the most significant drug trafficking and money laundering
organizations affecting the United States.

Budget and Staffing

       In fiscal year (FY) 2012, the OFC received $29.6 million in
operational funding. As of July 2013, the OFC had 195 staff members,
81 of whom were contractors. The remaining 114 staff members were
detailed to the OFC from its member agencies through reimbursable
agreements with the OCDETF Executive Office, with the majority of the
detailees from the Drug Enforcement Administration (DEA) and the
Federal Bureau of Investigation (FBI).

       The OFC’s fundamental staffing positions include Intelligence
Analysts, Desk Officers, Unit Chiefs, and Section Chiefs. Intelligence
Analysts are the only OFC employees that research and write the OFC’s
intelligence products on a daily basis. They also directly interact with
OFC customers (requesters) in the field to assess what information
should be included in products. The primary research tool that the
Intelligence Analysts use to develop products is the OFC database, which
ingests and fuses together investigative and regulatory information and
intelligence from a diverse set of agencies and organizations that provide
data to the OFC. Desk Officers, who are Special Agents, and Unit Chiefs,
who are Supervisory Intelligence Analysts, review and approve OFC
products. Section Chiefs supervise one or more units within the OFC.

       In addition, Special Agents and Intelligence Analysts in the DEA’s
Special Operations Division’s (SOD) OCDETF Fusion Center Section (OSF
section) support the operations of the OFC. SOD is a multi-agency
intelligence center that exploits communications-related data for law
enforcement purposes, and the Special Agents and Intelligence Analysts
within the OSF section receive all requests for OFC products and forward
those requests to the OFC.9 They also help deconflict investigations

works in close partnership with the OFC and the Drug Enforcement Administration’s
Special Operations Division. The IOC-2 is co-located with the OFC and shares access to
the OFC’s database. Its products are indistinguishable from OFC products except that
they focus on targets under investigation for a broader variety of criminal activity than
just illicit drug trafficking.

       9 SOD’s mission is to establish and coordinate law enforcement strategies and
operations aimed at dismantling national and international drug trafficking
organizations by targeting their command and control communications infrastructure.
                                                                               (Cont’d.)
U.S. Department of Justice                                                             2
Office of the Inspector General
Evaluation and Inspections Division
relating to OFC products and active SOD operations, and they review,
approve, and disseminate OFC products to requesters. The OSF section
is located at SOD, not the OFC.

Organization

      The OFC is led by a Director and two Deputy Directors. During the
period of our review, the Director was a detailee from the DEA, and the
Deputy Directors were detailees from the FBI and the Department of
Homeland Security’s Immigration and Customs Enforcement (ICE).10 As
shown in Figure 1, as of July 2013, the Deputy Directors supervised five
Section Chiefs, four of whom were detailees from the DEA and one of
whom was a detailee from the FBI. These Section Chiefs supervised
8 Unit Chiefs and 15 Desk Officers, who collectively supervised the work
performed by the 73 Intelligence Analysts who are responsible for
researching and writing OFC products. The OFC as a whole reports to
the OCDETF Deputy Director and the OCDETF Director, who is the
component head for the OCDETF Executive Office.11 The OCDETF
Executive Office is an independent component in the Department of
Justice that reports directly to the Deputy Attorney General.




The OSF section accounts for a small portion of SOD’s operations. Apart from the OSF
section’s involvement in the OFC product development process, we did not review SOD’s
operations or use of information.

       10   That Director of the OFC retired from the DEA in June 2013.

       11 The current OCDETF Director also serves as an Associate Deputy Attorney
General in the Office of the Deputy Attorney General.


U.S. Department of Justice                                                          3
Office of the Inspector General
Evaluation and Inspections Division
                     Figure 1: OFC Reporting Structure




Note: Numbers show on-board staff positions as of July 2013.
Source: OIG analysis of OFC staffing information.

      The OFC’s organizational structure is co-mingled, meaning that its
employees operationally supervise and report to employees from a variety
of OFC member agencies, although the majority come from the DEA and
the FBI. The OFC’s multi-agency structure results in Intelligence
Analysts having multiple supervisors at the OFC. Intelligence Analysts
report to two direct supervisors (their Unit Chief and Desk Officer), who
are typically from a different agency than their own, and one rating
supervisor from their own agency who they may not work with regularly.

       Within the OSF section at the DEA’s SOD, the Special Agents and
Intelligence Analysts report to the Assistant Special Agent in Charge of
the OSF section, who in turn reports to the Special Agent in Charge of
SOD. The OFC does not have any supervisory control over the Special
Agents and Intelligence Analysts in the OSF section who support the
OFC’s work.

Requesters

      Requests for OFC products originate from federal investigators and
analysts in OFC member agencies, including federally deputized state
and local law enforcement officers, who seek intelligence information to

U.S. Department of Justice                                                 4
Office of the Inspector General
Evaluation and Inspections Division
support active federal drug and related financial investigations, including
multi-agency investigations funded by the OCDETF Program. In
FY 2012, there were 4,683 requests for OFC products. The DEA, ICE,
and FBI account for the majority (77.4 percent in FY 2012) of OFC
product requesters. As shown in Figure 2, law enforcement personnel
from the DEA submitted 43 percent of all requests for products in
FY 2012. Law enforcement personnel from ICE and FBI submitted
18 percent and 16.5 percent of all requests in FY 2012, respectively. See
Appendix I for a complete breakdown of OFC requests by agency.

            Figure 2: Product Requests by Agency, FY 2012

                                  Other
                 Internal          819 
                Revenue           18%
                  Service 
                Criminal 
              Investigation    
                    240 
                    5%                                            DEA
                                                                  2,009 
                                                                  43%

                   FBI
                   772 
                   16%
                                  ICE
                                  843 
                                  18%
            Notes: There were a total of 4,683 requests for products in
            FY 2012.

            “Other” is a combination of eight agencies, each of which
            accounted for less than 5 percent of all product requests.

            The figure shows product requests by the agency of the
            requester. However, requesters may also request products
            on behalf of multi-agency investigative task forces, such as
            OCDETF Strike Forces.

            Source: OIG analysis of OFC data.

OFC Products

       The types of products the OFC generates in response to requests
for intelligence information include:

      Target Profile: This is a customizable intelligence product that
aggregates and analyzes information about specific individuals or

U.S. Department of Justice                                                 5
Office of the Inspector General
Evaluation and Inspections Division
organizations using all intelligence sources available to OFC Intelligence
Analysts. Examples of target information this product may provide
include biographical information, known associates, and financial
information.

      Cases and Contacts: This is a list of contacts in all agencies that
have relevant investigations on the requested target. When necessary,
the Cases and Contacts includes details showing how the cases are
linked to the requested target.

       Proactive Asset Targeting Team (PATT) products: Established in
2010, PATT products are similar in content and structure to Target
Profiles but are created proactively by the OFC instead of in response to
requests from the field. They are initiated when an automated OFC
process identifies a new Financial Crimes Enforcement Network (FinCEN)
suspicious activity report indicative of money laundering that relates to
an open federal investigation.12

       Initial Case Review: This is a list of federal investigations that may
be linked to the requester’s investigation or targets. The Initial Case
Review, unlike other OFC products, does not contain details explaining
ties between the case and the requested target. The OCDETF Program
requires requesters seeking OCDETF resources to request an Initial Case
Review.

      In addition to the four product types listed above, the OFC
produces the CPOT Briefing Book and the CPOT Quarterly Activities
Report, reference tools that provide information on each CPOT. The OFC
issues these products on a recurring basis, rather than in response to
requests from the field.

Product Workflow

       The workflow process for OFC products occurs at both the OFC
and the OSF section at SOD, and consists of four major phases:
(1) receipt of request by the OSF section at SOD, electronic transfer of
request to OFC, and assignment to an OFC Intelligence Analyst;
(2) research and writing of the product by an Intelligence Analyst; (3) the
approval process, during which staff at the OFC and OSF section at SOD


        12 FinCEN, a bureau of the Department of the Treasury and an OFC member

agency, receives suspicious activity reports from financial institutions pursuant to the
Bank Secrecy Act, which requires financial institutions to inform the federal government
of any suspicious transaction relevant to a possible violation of law or regulation. The
OFC regularly adds new FinCEN data to the OFC database.


U.S. Department of Justice                                                            6
Office of the Inspector General
Evaluation and Inspections Division
must approve the content within the product; and (4) dissemination,
during which a Special Agent or Intelligence Analyst in the OSF section
at SOD disseminates the product to the requester and other investigators
with related investigations.13 Figure 3 shows the percentage of total
processing time by workflow phase based on an Office of the Inspector
General (OIG) analysis of a sample of 31 randomly selected Target
Profiles completed in FY 2012.

Figure 3: Workflow Phases and Percentage of Total Processing Time




   Source: OIG analysis of a sample of 31 Target Profiles.

       OFC products are disseminated to multiple federal law
enforcement officers with related investigations. For example, for one of
the products we reviewed, an ICE agent from Washington, D.C.,
requested a product to assist in a money laundering investigation. The
OFC analyst conducted OFC database searches showing that the ICE
investigation was related to one or more FBI investigations being
conducted in three additional U.S. cities as well as in Lagos, Nigeria.
Through the OSF section at SOD, the OFC disseminated the Target
Profile to two different agencies’ investigators in five cities.

       Appendix I contains additional background information on the
OFC.




       13  In Phase 3, the first line of approval consists of the Desk Officer and Unit
Chief who directly supervise the Intelligence Analyst who wrote the product. The
second line of approval consists of one representative from both the OFC and OSF
section, each of whom must approve the product if it contains intelligence information
from their agency. These agency’s representatives review the product to determine
whether the agency data contained in the product can be released. The third and final
line of approval is the Assistant Special Agent in Charge of the OSF section.


U.S. Department of Justice                                                                7
Office of the Inspector General
Evaluation and Inspections Division
    PURPOSE, SCOPE, AND METHODOLOGY OF THE OIG REVIEW 



       The OIG conducted this review to examine the OFC’s operations
and assess its process for sharing its analytical products. The review’s
scope included aspects of the DEA’s Special Operations Division and the
International Organized Crime Intelligence and Operations Center that
relate to the OFC’s mission. Our scope did not include a review of SOD’s
operations or use of intelligence apart from its involvement in the OFC
product development process.

       To assess the OFC’s operations, we examined the OFC’s workflow
process. We used three separate methods to address this objective: an
analysis of the OFC’s workload data from FY 2006 through FY 2012;
interviews with OCDETF executives, OFC employees, and OFC product
users; and an analysis of the workflow process based on a random
sample of 31 Target Profiles (the OFC’s most commonly requested
product) completed in FY 2012.14

       To assess the OFC’s process for sharing its analytical products, we
gathered information about whether the OFC’s products provided
information that recipients could act on to further their investigations
and whether the products provided information that the requester could
not obtain in any other way. In addition to interviewing product
requesters in the Washington, D.C., area, we conducted site visits to
Houston, Texas, and New York City, where we interviewed investigators
and analysts, including members of the OCDETF Strike Forces, to gather
their views on the utility of OFC products and their impressions about
the OFC. During our field work, we also interviewed Assistant
United States Attorneys to determine how they used OFC products in
prosecutions. In addition, we examined how the OFC contributes to
investigations of the most significant drug traffickers, including those on
the Department’s Consolidated Priority Organization Target List.

Issues that Arose During the Review

       We learned during the course of this review that OFC management
took actions that created difficulties for us in obtaining information
directly from OFC employees and ensuring that interview responses were
candid and complete. For example, an OFC employee told us that during
a staff meeting for all OFC personnel that took place in February 2012,

       14  In this report, we use the term “OFC employees” to describe employees
detailed to the OFC from its member agencies.


U.S. Department of Justice                                                         8
Office of the Inspector General
Evaluation and Inspections Division
at the beginning of the OIG review, the OFC Director: (1) instructed OFC
personnel to answer all OIG questions, but not to elaborate; (2) noted
that it may be possible to determine who was responsible for any
statements referenced in the OIG report; and (3) directed OFC personnel
to give all documents the OIG requested to the OFC Associate Director,
who would review the documents and provide them to the OIG. Other
OFC personnel gave similar accounts of the Director’s comments. The
OIG was told that these statements, in conjunction with the procedure
that all documentation be routed through a single point of contact, set a
“very closed” and “adversarial” tone for the OIG review.

      When we learned that a protocol had been put in place limiting
employees from directly providing the OIG with documents if they wanted
to do so, we informed OFC management that the objectivity of our review
depended on us receiving documents directly from OFC employees
without having the information screened or filtered by management. The
OFC formally modified this process by issuing a memorandum in March
2012 stating that OFC employees could provide documents directly to
the OIG as long as they notified the OFC Associate Director of the
documents they had provided.

       Nevertheless, we were told that in November 2012, 8 months after
the OFC agreed to modify its document production protocol to allow
employees to provide documents directly to the OIG, an OFC employee
who directly provided the OIG with documents was later that day
confronted by the OFC Director and told that any release of documents
to the OIG had to be done by the OFC Associate Director.

      Finally, and of great concern to us, two FBI employees detailed to
the OFC reported to us that they were subjected to retaliation by the
OFC Director after they met with OIG Inspectors during this review to
describe their concerns about the OFC’s operations. The OIG recently
completed its review of these retaliation allegations and concluded that
there were reasonable grounds to believe that personnel actions were
taken against these employees in reprisal for their protected disclosures.
We have referred our findings to the appropriate authorities for
adjudication and resolution under applicable law, at which time the
agency will have full opportunity to respond.15



       15  Under the FBI Whistleblower Regulations, the OIG conducts the initial
investigation into the complaint, at which stage the agency is not a formal party. The
Department’s Office of Attorney Recruitment and Management acts as the final decision
maker for allegations of retaliation made by FBI employees.


U.S. Department of Justice                                                          9
Office of the Inspector General
Evaluation and Inspections Division
      Given this troubling conduct, we cannot be sure we obtained
complete information from or about the OFC or that other OFC
employees may not have been deterred from coming forward and
speaking candidly with us. The results of our review reflect the findings
and conclusions that we were able to reach based on the information
that was made available to us.16




       16  We also received information during our review that a Department official
assigned to the OFC allegedly engaged in various misconduct with respect to a
contractor. The OIG conducted an investigation and found that the official engaged in
misconduct. During its investigation, the OIG determined that another official, who
was detailed to the OFC, also engaged in misconduct, and that a third official, also
detailed to the OFC, likely committed misconduct. In June 2013, the OIG referred its
findings to the Department for appropriate action. The OIG has been informed that the
decision was made not to take disciplinary action against the Department official or the
two other officials.


U.S. Department of Justice                                                           10
Office of the Inspector General
Evaluation and Inspections Division
                          RESULTS OF THE REVIEW 



       Our review identified deficiencies in the OFC’s
       operations that could limit its contribution to the
       OCDETF     Program’s   effectiveness in  dismantling
       significant drug trafficking and money laundering
       organizations.

       Specifically, we found that the working relationship
       between OFC leadership and the FBI was strained. This
       situation adversely affected the OFC’s operations.
       Furthermore, the OFC has not addressed key issues that
       are keeping it from fully accomplishing its mission. The
       OFC is not prioritizing investigations with a nexus to
       high-value    drug   trafficking   targets,  there   are
       coordination issues between the OFC and SOD that need
       to be addressed, and not all federal investigators
       understand the circumstances under which they may
       share OFC product information with federal prosecutors.

       We also found that workflow inefficiencies may impede
       the OFC’s ability to maintain the quality and timeliness
       of its products. There are weaknesses that delay the
       product approval process, and OFC Intelligence Analysts
       lack guidance about how to proceed when they are
       unable to confer with requesters about what the product
       should include.    In addition, while investigators we
       interviewed told us OFC products provided useful
       information, the OFC lacks an adequate mechanism for
       obtaining meaningful feedback and data from users of its
       products.


During the period of our review, the working relationship between
OFC leadership and the FBI was strained.

       We found that there was an adversarial working atmosphere
between the leadership of the OFC (the Director of which was a DEA
employee during the period of our review) and FBI employees, including
detailees to the OFC and an OFC Deputy Director. For example, we
learned that several FBI personnel detailed to the OFC saw an imbalance
in the workload of DEA and FBI personnel, and were convinced that FBI
personnel were spending the vast majority of their time working on non-
FBI matters and that the FBI was doing more than its share of work at the

U.S. Department of Justice                                           11
Office of the Inspector General
Evaluation and Inspections Division
center. In addition, FBI personnel detailed to the OFC were concerned
that the OFC was not prioritizing requests from FBI customers. Further,
FBI Intelligence Analysts indicated that they were receiving conflicting
instructions from OFC supervisors that did not meet the mission needs of
the FBI or best serve the OCDETF Program.17 To address these concerns,
FBI leadership informed the OCDETF Executive Office and OFC
management that they wanted to change FBI operations at the OFC;
however, the OCDETF Executive Office and OFC management resisted the
change. In response to this opposition, the FBI prepared a report in
October 2012 that detailed the use of FBI staffing resources at the OFC.
Among other findings, the report reflected the FBI’s belief that it devoted
more resources to the OFC than it received back in work products while
other OFC member agencies, including the DEA, received more resources
from the OFC than they devoted to the center. The OCDETF Executive
Office and OFC management disputed the concerns the FBI raised in its
report and the data that underlay the FBI’s concerns.18

       Then, in January 2013, FBI leadership informed the OFC that the
FBI was planning to implement a single chain of command structure for
its employees at the OFC, including a requirement that all FBI requests
be assigned to FBI Intelligence Analysts only. This plan was to ensure
that all FBI personnel at the OFC were supervised only by FBI personnel
and represented a drastic change from prior OFC practice.19 In
response, the OFC suspended all FBI employees’ access to the OFC
database for approximately 6 weeks. OFC leadership restored FBI access
after reaching a temporary agreement with FBI leadership that all FBI
requests to the OFC would be handled by FBI Intelligence Analysts and
that the number of DEA Intelligence Analysts working at the OFC would
increase.20 In addition, the FBI and OCDETF Executive Office agreed to


       17  FBI employees also expressed concern that direct supervisors and rating
supervisors were not always communicating as they should when evaluating employee
performance and, as a result, those evaluations were not accurate reflections of the FBI
Intelligence Analysts’ performance.

       18  In response to a working a draft of this report, the OCDETF Executive Office,
DEA, and ICE indicated in substance that there were serious differences of opinion
between the FBI and the OCDETF Executive Office and other OFC member agencies
relating to the FBI’s compliance with its obligations under the OFC program.

       19 In response to a working draft of this report, the OCDETF Executive Office
stated that the OCDETF Director never authorized the FBI’s plan.

       20 In response to a working draft of this report, the OCDETF Executive Office
noted that the temporary agreement is a pilot project that has yet to be given a final
review.


U.S. Department of Justice                                                               12
Office of the Inspector General
Evaluation and Inspections Division
work jointly to revise the memorandum of understanding between the
FBI and the OFC.21

      We believe that a dispute of this significance, which lasted over a
period of many months, is a cause for serious concern, and it should
never have been allowed to affect the operations of the OFC. We were not
able to assess whether the strained working relationship between OFC
leadership and the FBI resulted from issues involving specific
individuals, the structure of the management and line staffing at the
OFC, or a combination of these or other factors. Nevertheless, given that
the OFC reports to the OCDETF Director, who, in turn, reports to the
Deputy Attorney General, we believe that the Office of the Deputy
Attorney General should evaluate the structure of the OFC and the
procedures for appointment of its management and staff to determine if
modifications are appropriate to ensure efficient and cooperative
operations.

       Recommendation

       We recommend that the Office of the Deputy Attorney General:

       1.	    evaluate the structure of the OFC and the procedures for
              appointment of its management and staff to determine if
              modifications are appropriate to ensure efficient and
              cooperative operations.

The OFC has not addressed key issues that are keeping it from fully
accomplishing its mission.

       We found problems with regard to the OFC’s prioritization and
information sharing procedures that have detracted from the OFC’s
efforts to fulfill its mission to enhance the OCDETF Program’s
effectiveness in disrupting and dismantling targeted criminal
organizations. We discuss these problems below.

The OFC does not prioritize investigations with a nexus to high-value
drug trafficking targets.

       The mission of the OCDETF Program is to reduce the supply of
illegal drugs in the United States and diminish the violence and other
criminal activity associated with the drug trade by identifying,

       21We learned of the OFC’s action to suspend the FBI employees’ access to the
OFC database, and the OFC operational changes that resulted from the OCDETF and
FBI agreement, after we had concluded our field work.


U.S. Department of Justice                                                        13
Office of the Inspector General
Evaluation and Inspections Division
disrupting, and dismantling the most significant international and
domestic drug supply organizations and their related money laundering
operations. To help focus its resources on this mission, OCDETF
oversees the establishment of the Attorney General’s Consolidated
Priority Organization Target (CPOT) List, a multi-agency target list that
identifies the leaders of the most significant drug trafficking and money
laundering organizations around the world that have an impact on the
supply of illegal drugs in the United States.22 The goal of every OCDETF
case is to work up and across the drug supply chain to make
connections among related organizations nationwide, in particular to
identify links to one of the international command and control networks
identified as a CPOT. The OCDETF Program seeks to direct its limited
program resources to coordinated, nationwide investigations that have
the greatest potential to disrupt and dismantle CPOTs.

       To help achieve this goal, an intended focus for the OFC has been
to maintain a base of knowledge and provide intelligence about the
CPOTs. The OFC’s Concept of Operations, drafted at the OFC’s
inception, stated that analysts and agents would be responsible for
conducting analyses to identify all links to CPOTs and CPOT
investigations, as well as all links between OCDETF and non-OCDETF
investigations. The OFC’s 2012 Strategic Plan reaffirmed this
organizational priority, stating, “As an operational intelligence center the
OFC’s primary responsibility is to produce human and financial
intelligence products that enable the field to actively investigate criminal
activity, specifically major CPOT entities and their affiliates.”

       The priority placed on CPOTs is also reflected in the OFC Charter
and the OFC’s 2005 Standard Operating Policy and Procedures.
According to the OFC Charter, one of the goals of the center is to provide
intelligence support to assist in the initiation and development of multi-
agency and multi-jurisdictional OCDETF investigations and prosecutions
targeting drug trafficking and related money laundering organizations,
including in particular those linked to CPOTs. The Standard Operating
Policy and Procedures further states that investigations linked to CPOTs
will be the priority of the OFC in an effort to reduce the supply and
availability of illegal drugs in the United States.

      In support of this priority, the OFC created a unit in 2007 that is
dedicated to CPOT operations on behalf of the OCDETF Program. The

       22  The OCDETF Program also oversees the establishment of the Regional
Priority Organizational Target List, which identifies those organizations whose drug
trafficking and money laundering activities have a significant impact in a particular
OCDETF Region.


U.S. Department of Justice                                                              14
Office of the Inspector General
Evaluation and Inspections Division
“CPOT unit” was created to support field offices on CPOT-linked
investigations, develop subject matter expertise on the various CPOTs,
and serve as a repository for all CPOT-related intelligence. According to
the CPOT unit’s Duties and Responsibilities, the unit is responsible for:

       	 gathering and analyzing information to produce CPOT target
          profiles;
       	 collecting, analyzing, and disseminating CPOT-related
          intelligence developed within the OFC in accordance with
          established protocols;
       	 analyzing intelligence to identify future generation of CPOTs;
       	 coordinating the preparation of the CPOT Briefing Book and
          CPOT Quarterly Activities Reports that provide information
          related to the background and activities of each CPOT; and
       	 serving as the central point of contact for field offices to send
          intelligence information related to CPOT activities and
          investigations, including assisting investigators in preparing
          nominations for the annual CPOT List.

      In addition, in 2012, the OFC created a database that serves as a
central repository for information related to the CPOTs. Only those
analysts that work in the CPOT unit have access to this database.23

       However, our review identified several deficiencies in the OFC’s
efforts to provide useful intelligence on the CPOTs. First, the OFC has no
procedures in place to prioritize its work based on the significance of the
target and thus does not currently prioritize work that relates to
investigations linked to CPOTs. Instead, OFC officials told us that the
center processes Target Profile requests on a first-in, first-out basis.
During our interview, the OCEDTF Director said he agreed that the OFC
should take the significance of the target into account when prioritizing
its work.

       Second, the OFC has dedicated limited resources to maintaining
its capability to provide information on priority targets and to support
activities relating to CPOT investigations and operations. According to
OFC and OCDETF officials we interviewed, the work required to maintain
up-to-date information on the CPOTs requires significant time and
attention. For each CPOT, an analyst must routinely gather intelligence


       23 Prior to the development of this database, the CPOT unit had access to a DEA
database that contained similar information but had fewer capabilities.


U.S. Department of Justice                                                         15
Office of the Inspector General
Evaluation and Inspections Division
by contacting investigators in the field and reviewing available
information sources to extract detailed information about the CPOT’s
business activities, illicit operations and methods, associates, and family
members. These officials also told us that keeping the CPOT List current
is a continual process because of the frequency with which CPOTs are
captured, extradited, or killed. Yet we found that as of July 2013, the
only resources the OFC dedicated to compiling intelligence on the CPOTs
were eight analysts assigned to the CPOT unit who, collectively, were
responsible for keeping well-informed on the activities and associates of
the 67 CPOTs.24

       Third, we found that investigators who have sought assistance
from the OFC have limited awareness of the intelligence it has available
on the CPOTs. For example, many of the users we interviewed were not
aware of or did not use the OFC’s annual CPOT Briefing Book.
Furthermore, at a May 2012 OFC forum on the CPOT unit’s service to
the field, investigators reported that they were not familiar with the CPOT
Quarterly Activities Reports that serve as updates to the information in
the CPOT Briefing Book. Investigators also reported that they would like
the OFC to provide more assistance in helping them to prepare
nominations for individuals to be included on the CPOT List and in
identifying whether their investigative targets are linked to CPOTs.

       In addition, OFC officials who have worked in the CPOT unit told
us that OFC management had not clearly defined the unit’s mission or
dedicated it exclusively to CPOT operations until recently. Of particular
concern to these officials was that the unit has been tasked at times with
developing regular products to make up for OFC staffing shortages in
other units. These officials told us that gathering and analyzing
intelligence on the CPOTs was a full-time job that required frequent
interaction with investigators in the field, DEA headquarters, and SOD.
They also stated that diverting resources to other matters had harmed
the unit’s ability to develop subject matter expertise and effectively track
the activities of priority targets.

      In interviews, OCDETF and OFC officials said that they envisioned
that the CPOT unit would play a bigger role in supporting the OCDETF
Program’s CPOT operations in the future. For example, these officials

       24 At least twice a year executives from OCDETF member agencies, with input
from their field investigators, determine new individuals that should be designated as
CPOTs and decide if any individuals currently on the list should be removed. In
FY 2013, new additions to the CPOT List were considered twice and removals were
considered four times. As of September 27, 2013, 67 people were on the list of active
CPOTs.


U.S. Department of Justice                                                           16
Office of the Inspector General
Evaluation and Inspections Division
stated that the unit would soon be able to determine whether reported
links to CPOTs were credible and could be corroborated by other
investigative data, an analysis that the OFC was previously unable to
perform because OCDETF investigative information had not been fully
merged with the OFC database and therefore was not easily searchable.
OCDETF officials also said that they intended to gather additional
information about how OFC products have supported CPOT
investigations, including how often OFC products have helped
investigators launch new OCDETF investigations and identify links to
CPOTs. In addition, the OFC was in the process of establishing an online
portal to CPOT information. This resource was to replace the annual
CPOT Briefing Book, and the OFC envisioned that it would respond to
the needs of investigators by making more timely CPOT intelligence
available to investigators and analysts.

      Improved prioritization of the OFC’s workload could substantially
help those investigators and prosecutors who work drug and related
financial cases that have the greatest potential to reduce the supply and
availability of illicit drugs.

       Recommendations

       We recommend that the OFC:

       2.	    establish procedures to identify and prioritize requests in
              investigations with a nexus to high-value drug trafficking
              and money laundering targets, such as targets linked to
              CPOTs and their associates; and

       3.	    develop guidance clarifying that the CPOT unit’s primary
              focus is to support CPOT-linked investigations and to
              compile intelligence on the CPOT organizations on behalf of
              the OCDETF Program.

Coordination between the OFC and DEA’s Special Operations Division
needs improvement.

      We identified problems between the OFC and SOD with how they
coordinate their efforts to provide information to OFC product requesters




U.S. Department of Justice                                                  17
Office of the Inspector General
Evaluation and Inspections Division
and track OFC product workflow information.25 The results of our
analysis follow.

Information Sharing Between OFC and SOD

       When the OFC was established in 2004, planning documents
envisioned that the OFC and SOD would establish a close partnership
that would enable the centers to combine their respective intelligence
efforts and data to provide the most comprehensive view possible of drug
trafficking organizations and the money laundering networks and other
infrastructures that support them, including investigations targeting
OCDETF and CPOT targets. To this end, in FY 2005, a group of OFC
personnel referred to as the OCDETF Fusion Center section at SOD (OSF
section) was established within SOD to coordinate and facilitate the
interaction among the OFC, SOD, and requesters’ field offices.

      The OSF section at SOD plays an integral role in the OFC’s
product workflow process.26 According to the OFC’s 2005 Standard
Operating Policy and Procedures, which were in effect during our review,
the OSF section is responsible for performing the following workflow
functions:
    	 receiving, reviewing, and tracking all incoming requests for OFC
       products and forwarding the requests to the OFC;
    	 handling all deconfliction and coordination between agencies and
       investigations supported by OFC products;
    	 reviewing OFC products for accuracy and completeness, and
       approving the release of agency information in them; and
    	 disseminating the products to the appropriate users.

     As shown in Figure 4, the OSF section receives all requests for
OFC products and forwards those requests to the OFC. After the OFC

       25 Our scope did not include a review of SOD’s operations or the collection or
sharing of intelligence apart from its involvement in the OFC product development
process.

       26  As of July 2013, the Bureau of Alcohol, Tobacco, Firearms and Explosives,
DEA, FBI, Internal Revenue Service Criminal Investigation, and U.S. Marshals Service
had detailed a total of 17 Special Agents, Intelligence Analysts, and support staff to the
OSF section at SOD. Except for the Internal Revenue Service Criminal Investigation
and U.S. Marshals Service personnel, all of these positions were reimbursable by the
OCDETF Program. Other OFC member agencies use existing staff that they have
detailed to SOD to assist the OFC. However, these staff members are responsible for
supporting SOD in addition to processing OFC products.


U.S. Department of Justice                                                              18
Office of the Inspector General
Evaluation and Inspections Division
has developed a product that has been approved by the appropriate
agency representatives at the OFC and the OSF section, the OSF section
disseminates the product to the requester and other approved
investigators and or analysts.

Figure 4: Steps of the OFC Product Workflow Process from Product
                  Request through Dissemination


                                                             OFC distributes
   Field sends product           OSF section inputs                             Intelligence Analyst
                                                              request to an
 request to OSF section          request and sends                             contacts requester to
                                                               Intelligence
          at SOD                      to OFC                                      discuss request
                                                                 Analyst




                                 Product goes
  Intelligence Analyst             through                    OSF section
     drafts product             multi-layered                disseminates
                               approval process                 product




                          Product must be approved by:
              1.   Unit Chief and Desk Officer
              2.   Agency officials at OFC from all agencies with
                   information in product
              3.   Agency officials at OSF section from all agencies
                   with information in product
              4.   Assistant Special Agent in Charge of OSF section



   Source: OIG analysis of OFC product workflow process.

      We found that management of the workflow process for OFC
products is not entirely the OFC’s responsibility, but rather is shared
between the OFC and SOD. In addition, the reporting structure and
chain of command for the OSF section personnel is fragmented, with
some of the OSF section staff reporting directly to the Assistant Special
Agent in Charge of the OSF section and others reporting to OFC
management for their OFC-related work. Also, several OFC managers
noted problems with the communication and coordination between the
OFC and OSF section staff because the OSF section is located at SOD,
not the OFC.

      In addition, we found that some of the OSF section personnel often
perform work that is unrelated to processing OFC products. Four of the
six OSF section staff we interviewed said that in addition to reviewing
incoming requests and approving outgoing OFC products, they
coordinate cases and operations supported by SOD and process requests
for SOD intelligence products. Multiple OFC officials told us that the


U.S. Department of Justice                                                                       19
Office of the Inspector General
Evaluation and Inspections Division
OSF section’s lack of focus on processing OFC products has contributed
to product delays and quality-control problems.

       In the course of our review, we also found that there is no formal
or informal understanding between OFC and SOD about whether the
OSF section should use SOD communications data, which is not
available to the OFC, to add value to OFC products. OCDETF and OFC
officials told us that the OSF section is responsible for reviewing OFC
products to determine whether it can add value to them by using the
communications data available to it through SOD databases but not
available in the OFC database.27 Figure 5 illustrates the OSF section’s
role in adding value to OFC products as described to the OIG by
OCDETF and OFC officials.

   Figure 5: OSF Section’s Role in Adding Value to OFC Products




   Source: OIG analysis of OFC product workflow process.

      However, during interviews with the OIG, employees located at the
OFC expressed confusion regarding what actions the OSF section was
actually taking to add value to OFC products. Several OFC managers
and analysts told us that they were under the impression that the OSF
section is supposed to be checking the information in the outgoing OFC
products against SOD’s communications databases to further deconflict
the investigations supported by the OFC products and to provide


       27 The OFC has access to some communications data through the investigative,
regulatory, and open source data within its database, but it does not have access to
information gathered through the use of federal wiretaps. That data is contained in
SOD databases.


U.S. Department of Justice                                                       20
Office of the Inspector General
Evaluation and Inspections Division
additional leads on targets. However, they told us that they did not know
if the OSF section was actually taking these steps, nor did they
understand how the section was using the information in OFC products
to further accomplish deconfliction.

      When we asked OSF section staff members whether they
performed database checks for outgoing OFC products, we received
inconsistent responses. Some staff members told us that they did not
perform these checks, although they said they did check the information
in incoming product requests against the SOD databases to determine if
the requests were linked to existing operations or cases supported by
SOD. These staff members also told us that the OFC product requester
was responsible for following up with SOD if additional information from
SOD was needed.28 In contrast, other OSF section staff we interviewed
told us that they routinely checked the information in outgoing OFC
products against SOD databases. For example, one analyst said that he
checked the telephone and e-mail data in the OFC products against SOD
databases because requesters from his agency were generally not
knowledgeable about the distinction between the OFC and SOD. The
analyst also expressed his concern that, if these database checks were
not performed, requesters might not be aware that they needed to submit
a separate request to SOD to obtain communications intelligence on their
targets.29

      Our review concluded that a significant contributing factor causing
the confusion among employees located at the OFC regarding what
actions the OSF section was taking to add value to the OFC products is
that OFC and SOD management have not adequately defined the role
and responsibility of the OSF section in adding value to OFC products.
Although the OFC’s 2005 Standard Operating Policy and Procedures
states that the OSF section is responsible for handling all deconfliction
and coordination between agencies and investigations supported by OFC
products, it does not specify the OSF section’s responsibilities with
respect to performing SOD database checks on information in the OFC
products. Furthermore, the Standard Operating Policy and Procedures
does not provide guidance on what actions the OSF section should take


       28  The product may include recommendations to contact SOD for additional
analysis if it contains telephone numbers or e-mail addresses identified by the OFC that
may be relevant to the requester’s investigation.

       29  An investigator we interviewed said that the connection between the OFC and
SOD was confusing and he did not understand how the centers were merging their
intelligence into the OFC product.


U.S. Department of Justice                                                           21
Office of the Inspector General
Evaluation and Inspections Division
or what information, if any, it should add to the OFC product if it finds
relevant intelligence in the SOD databases.

       Some OFC managers said that while the partnership with SOD was
originally important because SOD’s involvement reinforced trust among
the OFC member agencies, they now question the added value that the
OSF section was bringing to the products. The OSF section has access
to SOD databases that OFC managers believe can provide additional
intelligence on the drug trafficking and money laundering targets
included in the OFC product requests. OFC officials told us that they
could see no evidence that the OSF section was checking the
communications information in the OFC products against SOD
databases, which they believed the OSF section was supposed to be
doing to further accomplish deconfliction.

      OFC customers have indicated that SOD analysis would make the
OFC products more valuable. For example, during interviews with the
OIG, a few investigators said that they would like OFC products to
provide additional analysis on the telephone numbers they include. At
an OFC customer forum, investigators also expressed their desire for the
OFC to provide an all-in-one product that merged the OFC’s human and
financial intelligence with SOD’s communications intelligence. OFC and
SOD officials told us that they have already taken steps to explore how
the two centers can further share their respective intelligence to enhance
the identification of links between targets and investigations.30

      Until the OFC and SOD better define the management of the OSF
section’s role in the workflow process, including what actions the OSF
section can and should take to add value to the OFC products, OFC
customers will not be able to effectively deconflict and fully coordinate all
investigations supported by OFC products.

       Recommendation

       We recommend that the OFC:

       4.	    work with SOD to define the management and workflow
              responsibilities of the OSF section, including what actions
              the OSF section can and should take to allow appropriate
              information sharing between SOD and the OFC and increase
              the intelligence value of OFC products.


       30 As noted above, our review did not examine the nature or appropriateness of
SOD’s policies, procedures, or internal controls for information collection and sharing.


U.S. Department of Justice                                                            22
Office of the Inspector General
Evaluation and Inspections Division
Tracking OFC Product Workflow Information

      We found that the OFC is unable to reliably collect and track OFC
product workflow information from the OSF section. The OSF section
tracks requests to the OFC in two separate computer systems: the OFC
product workflow system and a DEA case tracking system.31 The OSF
section receives incoming requests for OFC products through a web
portal, or for customers without access to the portal, by facsimile or
e-mail. Requests that come through the web portal go directly to the
DEA tracking system. These requests are then manually re-entered by
OSF section staff into the OFC product workflow system. Facsimiled and
e-mailed requests are manually entered by OSF section staff into both
systems.32 Similarly, the OSF section staff has to manually key the
dissemination date and the recipients of the OFC products into the OFC
product workflow system, which we were told in interviews can
occasionally result in incomplete or incorrect product dissemination
data.

       In addition, because the OFC workflow system cannot
automatically track the actual date of dissemination for a product, OFC
officials consider the date when the Assistant Special Agent in Charge of
the OSF section approves a product for release as the date when the
product is completed, even though this does not reflect the date when the
OSF section actually disseminated the product to the requester.33

      OFC officials told us that their inability to collect accurate product
workflow data from the OSF section has made it difficult for them to
monitor the workflow process and track product timeliness, and it has


       31The DEA tracking system helps the OSF section to determine whether the
OFC request is linked to an operation or case that is already being supported by SOD.

       32 OFC staff members told us that for facsimiled and e-mailed requests, the OSF
section does not always enter the date when the request was actually submitted but
rather the date when it was entered in the OFC workflow system. However, in our
sample of 31 Target Profiles we found that, on average, the elapsed time between the
date when the request was actually submitted and the date it was entered into the OFC
workflow system was 1 workday.

       33 However, in our sample of 31 Target Profiles we found that, on average, the
elapsed time between the date when the product was approved and the date when it
was actually disseminated to the requester was 1 workday. Although there were
31 products in our sample, we used only 30 to compute this average as the remaining
product was an outlier. According to the OFC workflow system, that product took
2 months from the date when it was approved to the date when it was actually
disseminated to the requester.


U.S. Department of Justice                                                          23
Office of the Inspector General
Evaluation and Inspections Division
prevented the OFC from being able to reliably determine the amount of
time it takes to process a product from start to finish.

       Recommendation

       We recommend that the OFC:

       5.	    improve the capabilities of its product workflow system or
              make other process improvements to collect accurate
              product workflow data on product requests and
              disseminations processed by the OSF section at SOD.

Additional guidance is needed to address when investigators may share
OFC products with federal prosecutors.

      Historically, federal prosecutors have had limited direct contact
with the OFC because OFC practice requires that requests come from
federal investigators.

       We interviewed eight federal prosecutors who handle cases to
which the OFC’s information is potentially relevant, including six lead
OCDETF prosecutors, one Asset Forfeiture Section Chief, and one
Assistant United States Attorney who was assigned to an OCDETF case.
Six of these eight prosecutors told us they were not familiar with the
capabilities of the OFC or its products, and four of these prosecutors told
us that they had never seen an OFC product.

      In our interviews, the two federal prosecutors who said they were
familiar with the OFC’s capabilities each gave us an example where they
said their use of OFC products had been useful to their prosecutions.
These two federal prosecutors, as well as the OCDETF Director, told us
that greater federal prosecutor awareness and use of OFC products
would be useful.

       Some investigators we interviewed said that they shared the
information in OFC products with the federal prosecutors assigned to
their cases. However, other investigators told us that they do not share
the product information with federal prosecutors. There is a warning
printed on the cover page of all OFC products that restricts its use as
follows:

       This product contains sensitive proprietary law enforcement information
       which may be either classified or the subject of stringent caveats, and as
       such may not be referenced or incorporated into affidavits or other court
       related documents without the express written permission of the
       originating agencies. It is provided to your agency for lead purposes only

U.S. Department of Justice                                                          24
Office of the Inspector General
Evaluation and Inspections Division
       and may not be disseminated to third parties without approval of the
       originating agencies. . . .” (emphasis added)

OFC officials told us that this caveat is not meant to preclude
investigators from sharing the products with the federal prosecutors
assigned to their case. However, one OFC official we interviewed told us
that this caveat had led some investigators to incorrectly conclude that
they were not allowed to show OFC product information to federal
prosecutors.

      It is apparent that additional guidance is necessary to clarify when
it may be appropriate for investigators to notify federal prosecutors about
OFC product information.

       Recommendation

       We recommend that the OFC:

       6.	    modify the warning statement on OFC products and provide
              additional guidance to make clear the conditions under
              which investigators may show the products to federal
              prosecutors.

Workflow inefficiencies may impede the OFC’s ability to maintain
the quality and timeliness of its products.

      Trends in the OFC’s data suggest that the OFC’s workload is
increasing. The number of product requests for OFC products is
increasing and the products are becoming more complex. These trends
emphasize the importance of ensuring that the workflow process for
producing OFC products performs as efficiently as possible. However, we
found several workflow inefficiencies that need correcting to maintain the
operational effectiveness of the OFC.

Requests for OFC products are increasing and the products are
becoming more complex.

      The number of product requests users submitted to the OFC
increased each year from FY 2006 through FY 2012. As shown in
Figure 6, the number of requests increased from 938 in FY 2006 to 4,683
in FY 2012. Between FY 2009 and FY 2010, the OFC experienced its
largest increase in requests from 2,004 in FY 2009 to 3,934 in FY 2010




U.S. Department of Justice                                                    25
Office of the Inspector General
Evaluation and Inspections Division
(a 96-percent increase). This time period coincided with the addition of
several new OFC member agencies, including ICE.34

     Figure 6: Number of Product Requests, FY 2006 through FY 2012
                                5,000
                                                             4,683
                                4,500

                                                                                           4,093
                                                                                   3,934
                                4,000

 Number of Product Requests




                                3,500


                                3,000


                                2,500

                                                                       2,004
                                2,000

                                                             1,420
                                1,500

                                          938      976
                                1,000


                                 500

                                      0
                                          2006     2007      2008      2009        2010    2011    2012
                                                                     Fiscal Year

                              Source: OIG analysis of OFC data.

       In response to the increasing demand, the OFC generated more
products. As shown in Figure 7, the number of products increased each
year from 650 in FY 2006 to 3,364 in FY 2012.35




           ICE; the Department of State, Bureau of Diplomatic Security; and the
                                 34

Department of Labor, Office of Inspector General all signed memoranda of
understanding to become members of the OFC in 2009. The Secret Service signed a
memorandum of understanding with the OFC in 2010. An incentive for these agencies
to partner with the OFC was the establishment of the IOC-2 in 2009. As noted above,
the IOC-2 and OFC are co-located and share resources and information to accomplish
their respective missions.

           In FY 2012, 23 percent (1,094 of 4,683) of requests did not result in a
                                 35

product. OFC personnel told us that requests do not result in products when the OFC
does not have information on the targets submitted and when the OFC has information
only from the requester’s agency. (Because the requester would presumably have
access to this information, the OFC does not produce a product in these cases and will
notify the requester accordingly.)


U.S. Department of Justice                                                                                 26
Office of the Inspector General
Evaluation and Inspections Division
Figure 7: Number of Products Generated, FY 2006 through FY 2012
                        4,000
                        3,500                                                 3,278    3,364

                        3,000                                         2,693
   Number of Products




                        2,500
                        2,000
                                                          1,397
                        1,500
                        1,000    650    689     708
                          500
                            0
                                 2006   2007    2008      2009        2010    2011     2012
                                                        Fiscal Year


               Source: OIG analysis of OFC data.


      Our analysis of OFC data also showed that OFC products are
becoming more complex. For example, we found that analysts are
researching more targets per profile and each profile contained
information from a growing number of agencies. As shown in Figure 8,
the number of targets researched to develop the Target Profiles increased
each year from 353 in FY 2006 to 11,132 in FY 2012.

                        Figure 8: Number of Targets Researched for Target Profiles, 

                                       FY 2006 through FY 2012 


                        12,000                                                10,915   11,132

                        10,000
  Number of Targets




                                                                      8,426
                         8,000

                         6,000
                                                          4,150
                         4,000
                                                1,815
                         2,000          1,317
                                 353
                            0
                                 2006   2007    2008       2009       2010    2011     2012
                                                        Fiscal Year


               Source: OIG analysis of OFC data.

U.S. Department of Justice                                                                      27
Office of the Inspector General
Evaluation and Inspections Division
       Overall, the average number of targets researched per Target
Profile also increased from 1.4 targets per request in FY 2006 to
4.4 targets per request in FY 2012. The increasing number of targets per
profile means that, on average, analysts have to conduct more
complicated, extensive, and time-consuming searches and analyses of
information in the OFC database to develop each Target Profile.

      Also during this period, Target Profiles contained information from
a growing number of agencies. For example, in FY 2006 a Target Profile
contained, on average, information from 2.2 agencies, while in FY 2011
the number increased to 4.2. During the same period, the maximum
number of agencies with their information included in a Target Profile
increased from 9 to 13. Because agency information in a product cannot
be shared until representatives located at both the OFC and SOD have
approved it for release, the number of approvals required increases as
the number of agencies with their information in the product increases.36

        In addition to the reactive work the OFC already engages in to
respond to requests from investigators in the field, OFC officials said
there is an opportunity for the OFC to analyze data more proactively,
such as by identifying significant money laundering targets and their
affiliates not already under investigation. For example, OCDETF and
OFC officials have discussed, but not finalized, a partnership with the
Department of the Treasury that would expand the OFC’s data analysis
for the purpose of detecting significant money laundering networks. The
project would combine the OFC’s data analysis capabilities with the
Department of the Treasury’s authorities and expertise in conducting
money laundering investigations. Treasury officials told the OIG that the
partnership has the potential to enhance law enforcement’s ability to
disrupt and dismantle significant organized crime threats, provide more
intelligence on the movement of money overseas by major drug
trafficking organizations, and improve law enforcement’s understanding
of the money laundering methods and networks used by major drug
trafficking organizations. Such initiatives are likely to add further
complexity to the OFC’s work and products.

Product Timeliness

      As noted above, we found that the OFC is unable to track reliable
workflow information on product timeliness from the OSF section at

       36  FinCEN and the Federal Bureau of Prisons do not require approval for the
release of their agency information in OFC products. In addition, the Department of
State does not require approval for the release of Nonimmigrant Visa and Immigrant
Visa information in OFC products.


U.S. Department of Justice                                                            28
Office of the Inspector General
Evaluation and Inspections Division
SOD. At the time of our review the OFC had not established official
performance metrics to measure product timeliness, but OFC officials
told us that the center strives to complete Target Profiles in 30 workdays,
Cases and Contacts in 15 workdays, and Initial Case Reviews in
10 workdays.

      In our analysis of a sample of 31 Target Profiles, we identified
7 Target Profiles (22 percent) that exceeded the OFC’s time threshold of
30 workdays to complete this product type.37 Intelligence Analysts for
the seven products that took more than 30 workdays to complete
attributed the delays to a variety of reasons, including the time they
spent fulfilling training requirements and the generally high volume of
requests for products that they receive.

       In addition, for two products, the primary reason they were not
completed within 30 workdays appears to have been avoidable delays
during the approval phase. Specifically, under the OFC’s process, if a
product is disapproved, the Intelligence Analyst who developed the
product is responsible for making any necessary changes and then
resubmitting the product for approval. Yet for these two products, the
Intelligence Analysts had taken leave at the time the products were
disapproved, and nobody had been assigned responsibility for the
products in their absence. The products were not completed until these
Intelligence Analysts returned from leave, causing delays to each
product, in one case up to 1 week, and resulting in both products
exceeding the OFC’s 30-workday threshold for the completion of Target
Profiles.

      Despite the delays we identified within our sample, the majority of
users we interviewed regarding specific Target Profiles said that they had
received the products quickly enough to meet the needs of their
investigations.38 Users said they had received their Target Profiles in 1 to
6 weeks. The two users who said they did not receive Target Profiles
quickly enough waited 6 weeks and 2 months, respectively.




       37 The time taken to complete these seven Target Profiles ranged from 32 to
77 workdays. To control for variables that could affect processing times, we limited our
sample to products that required approvals from three agencies and that provided
information on two to five targets.

       38 Twenty-four of 30 users said they received the Target Profiles quickly enough
to meet their investigative needs, 2 said they did not receive it quickly enough, and
4 were not asked or did not have an answer.


U.S. Department of Justice                                                           29
Office of the Inspector General
Evaluation and Inspections Division
Weaknesses exist in the OFC’s staffing and product approval process.

      In the course of our review, we identified several factors that
negatively affect the OFC’s staffing resources and product approval
process, which can inhibit the OFC’s operational effectiveness. We
discuss these problems below.

OFC’s Multi-Agency Staffing Structure

       Staffing at the OFC is multi-agency, and the center is dependent
upon its member agencies for supplying the staffing resources necessary
to accomplish its mission. OFC member agencies assign personnel to
the center in accordance with the OFC Charter and a memorandum of
understanding between each agency and the OFC. The OFC Charter
governs the cooperation among member agencies in the establishment
and administration of the OFC. According to the charter, staffing at the
OFC will consist of highly skilled, trained, and motivated Special Agents,
Intelligence Analysts, and other personnel committed to accomplishing
the OFC mission. Each memorandum of understanding between a
member agency and the OFC sets forth the terms by which the member
agency agrees to commit personnel resources and contribute information
to the OFC. It also specifies the number of personnel the member agency
is to assign to the OFC, including the grade level, series, and position of
the assigned personnel.

       However, our review found that member agencies do not always
adhere to these staffing agreements. For example, for some OFC
Intelligence Analysts, the OFC is their first law enforcement assignment.
In interviews with OFC staff and users, we were told that Intelligence
Analysts who do not have field experience supporting investigations lack
institutional knowledge about their own agency and lack insights about
the kind of support investigators need. One user said that, based on his
interactions with the OFC, it was apparent to him that some of the
Intelligence Analysts did not have any field experience and that made it
harder to convey what type of intelligence was being sought through
product requests. OFC Intelligence Analysts similarly told us that having
field experience is important for understanding what intelligence users
are asking for and tailoring products accordingly, and that Intelligence
Analysts without field experience require time-consuming mentoring that
can contribute to product delays.39


       39 Experienced Intelligence Analysts are regularly assigned new Intelligence
Analysts to mentor. Mentors help new Intelligence Analysts research and write
products, and help develop new Intelligence Analysts’ analytical skills.


U.S. Department of Justice                                                            30
Office of the Inspector General
Evaluation and Inspections Division
       Employees from one OFC member agency expressed concern that
their agency was detailing new Intelligence Analysts to the OFC who
lacked training and experience with their home agency’s practices,
procedures, and investigative techniques, which they said prevented the
Intelligence Analysts from effectively supporting their agency’s field
operations. These Intelligence Analysts typically do not gain the needed
experience in their own agency until their assignment at the OFC is
complete.40 In addition, the employees said that Intelligence Analysts at
the OFC do not develop regional subject matter expertise, which they
believe to be an important part of Intelligence Analyst career development
at that agency.

       In addition to not having field experience, some Intelligence
Analysts were below the grade level called for in staffing agreements
between the OFC and its member agencies. Specifically, although the
memoranda of understanding between two member agencies and the
OFC called for Intelligence Analysts in the GS-9 through GS-13 grade
levels, as of October 2012 seven of the Intelligence Analysts detailed to
the OFC by those two member agencies were at the GS-7 grade level.

       We also found that several authorized Intelligence Analyst
positions had been vacant for significant amounts of time. Specifically,
as of October 2012, one DEA Intelligence Analyst position had been
vacant for over 6 years, two DEA Intelligence Analyst positions had been
vacant for 1 year, and two DEA Intelligence Analyst positions as well as
one DEA supervisory Intelligence Analyst position had been vacant for
6 months.41 DEA officials attributed the delays in filling these vacancies
to hiring freezes and budget cuts, as well as attrition, retirements,
transfers, and promotions.

       Vacancies in Intelligence Analyst positions are especially
significant because they are the only employees at the OFC that research
and write products full time. As of October 2012, the OFC had
52 Intelligence Analysts, and the center created a total of 3,364 products,
including 2,529 Target Profiles in FY 2012. Therefore, on average, each


       40 The memoranda of understanding between the OFC and its member agencies
require a minimum commitment of 2 years for each Intelligence Analyst detailed to the
OFC.

       41 We also found that one Coast Guard Intelligence Analyst position had been
vacant for over 5 years. According to its memorandum of understanding with the OFC,
the Coast Guard has agreed to detail one military or civilian Intelligence Analyst to the
OFC. An OFC official told us that the agency was unable to fill the vacancy because it
lacked available personnel resources.


U.S. Department of Justice                                                            31
Office of the Inspector General
Evaluation and Inspections Division
of the Intelligence Analysts was responsible for developing 65 products,
including 49 Target Profiles. During interviews with Intelligence
Analysts, we were told that Intelligence Analysts always had several
product requests waiting to be worked on and that the high workload
sometimes caused products to be delayed past the OFC’s timeliness
threshold of 30 workdays to complete a Target Profile. Filling vacant
Intelligence Analyst positions with experienced personnel as specified in
the OFC’s memoranda of understanding with its member agencies, to the
extent possible, would allow product requests to be dispersed over a
greater number of Intelligence Analysts, decreasing the number of
products waiting in each Intelligence Analysts’ product queue.

       Recommendation

       We recommend that the OFC:

       7.	    work with its member agencies to revise its staffing
              agreements to further encourage member agencies to assign
              experienced Intelligence Analysts to the center and minimize
              vacancies in Intelligence Analyst positions.

Product Approval Process

       After an Intelligence Analyst completes the research and writing of
an OFC product, the product is required to undergo a multi-layered
approval process before it can be disseminated to the requester and other
federal law enforcement officers with related investigations. We found
that at a minimum, five different reviewers are involved in the approval
process.42 Moreover, once a product is disapproved by a reviewer for any
reason, OFC protocol requires that everyone in the approval chain at
both the OFC and SOD must again review the product for re-approval,
even if the information relevant to their agency has not changed. OFC
officials told us that the approval process helps to reinforce trust among
the member agencies that the agency information in the OFC product
will be accurately presented and sensitive information will be protected
from unauthorized disclosure.



       42  This assumes that the product contains information from only one OFC
member agency. The first two approvals are the Desk Officer and Unit Chief at the
OFC, respectively. The third and fourth approvals are the agency representatives
located at both the OFC and SOD, respectively, who determine whether the agency data
contained in the product can be released. The fifth and final approval is the Assistant
Special Agent in Charge of the OSF section at SOD.


U.S. Department of Justice                                                          32
Office of the Inspector General
Evaluation and Inspections Division
      Our review also found inconsistencies in approval standards for
OFC products that are due, in part, to operational differences among and
within the OFC units that research and write products in response to
requests. For example, for Cases and Contacts products, some units
require one- or two-sentence summaries of any relevant open
investigations, while other units do not require such detail.43 Units also
vary in their policies regarding excluding certain types of information to
which the requester already has access. For instance, some units’
analysts do not perform criminal history checks because they believe the
requester is likely to have this information already. Similarly, some
analysts will not include FinCEN information if they know the requester’s
agency has its own access to FinCEN’s databases, and some analysts do
not include information from the requester’s agency in the product.
According to OFC staff, the differences among units are due to the
individual preferences of supervisors within each unit.

       We found that the differences among and within units can cause
uncertainty among Intelligence Analysts as to whether products will be
approved and that this confusion adds unnecessary delay during the
approval process. Because multiple staff members within the OFC and
SOD are responsible for approving each product, one staff member may
disapprove a product for reasons another staff member might not. Each
disapproval and revision adds time to the approval process. For those
products in our sample that had disapprovals, the average number of
days devoted to the approval phase was 5 workdays. This represents
17 percent of the total target processing time of 30 workdays for the
products. We believe that if greater consensus existed across units and
supervisors regarding the information that should and should not be in
products, and if that consensus were effectively communicated to
Intelligence Analysts, the approval process could be improved.

      Furthermore, some OFC personnel told us that products are
frequently disapproved for minor edits, which can result in repetitive
approvals and negatively affect employee morale. For example, a May
2012 OFC document outlining a proposal by OFC staff members to
streamline the approval process notes that one Desk Officer had
274 products to approve in May 2012. The majority of these products
had been submitted for re-approval, some three to five times each, and
most of the products had been disapproved for non-substantive errors
such as spelling, grammar, and product formatting mistakes that could
have been fixed by the Intelligence Analyst and Desk Officer without


       43 A Cases and Contacts product provides a list of contacts in all agencies that
have relevant investigations on the requested target.


U.S. Department of Justice                                                           33
Office of the Inspector General
Evaluation and Inspections Division
necessitating re-approval by all of the reviewers in the approval process.
According to the proposal document, the primary reason for the
disapprovals was incorrect or outdated information on applicable case
agents and their phone numbers. Other reasons for disapproval
included typographical errors, missing hyphens in a case number, or
missing spaces between words.

      In an effort to streamline the approval process and ensure that the
standards used by OFC product approvers are consistent and clearly
communicated to OFC staff, the OFC developed a Product Style Guide in
2011. In interviews with OFC staff, we found that the Product Style
Guide has helped increase consistency and reduce disapprovals overall,
especially for minor grammatical issues. However, OFC personnel also
told us that OFC and SOD staff members responsible for approving
products varied in their adherence to the Product Style Guide, with some
requiring strict adherence, others viewing adherence as optional, and
others ignoring it altogether.

       Recommendation

       We recommend that the OFC:

       8.	    develop and implement consistent approval standards for
              OFC products and explore ways to further streamline the
              approval process.

Requesters are not always contacted to determine what intelligence is
needed.

       According to the OFC Product Style Guide, Intelligence Analysts
are to work with Desk Officers to contact requesters so that they can
tailor products to requesters’ needs. Staff members at all levels of the
OFC emphasized the importance of speaking with the requesters to
determine what intelligence they need and how quickly they need it.
OFC staff stated that contacting users ultimately saved time in preparing
products and ensured that the recipients received the products in time to
be useful. They said that requesters’ needs vary, depending on the phase
an investigation was in when a request was made. If a request is made
early in an investigation when not much is known, the requester may
want as much information as possible. Alternatively, if a request is made
at the end of an investigation, immediately before indictment, the
requester may simply need to establish that there are no related cases
that the requester is unaware of. In addition, requesters may not be
familiar with the types of products the OFC offers, and a conversation


U.S. Department of Justice                                              34
Office of the Inspector General
Evaluation and Inspections Division
between the requester and the Intelligence Analyst can help determine
the best product to meet the requester’s needs.

       Although OFC staff stated the importance of conferring with
requesters, 6 of the 31 Target Profiles in our sample lacked
documentation to indicate that any effort had been made to contact the
requester. In addition, four OFC users we interviewed did not remember
being contacted by the OFC after submitting their product requests. One
of these users said his biggest complaint about the OFC was that the
Intelligence Analysts were disconnected from the investigations they are
tasked to support and therefore do not know what information is relevant
to a case and important to the investigator.

      OFC staff members told us that making contact with requesters is
an ongoing challenge, as requesters are often unavailable to confer or
slow to return calls from the OFC. OFC users that we interviewed agreed
that they were often difficult to contact because some parts of their job,
such as listening to wiretaps and conducting operations on the street,
take them out of the office for extended periods of time.

      We found that the policies governing contacts with requesters are
incomplete, leading to inconsistent practices among OFC personnel. The
Product Style Guide states that if the Intelligence Analyst is unable to
contact the requester within 1 week, the Intelligence Analyst is to notify
the Desk Officer. However, the Style Guide does not specify what actions
the Desk Officer should take when this happens. During our interviews
with Intelligence Analysts, we learned that different groups at the OFC
take different approaches to this situation. At least one unit will not
process the request if the Desk Officer is unable to contact the requester
by the third attempt. In other units, when an Intelligence Analyst is
unable to reach a requester to discuss a request for a Target Profile, the
units complete the Target Profile anyway. Other units substitute a Cases
and Contacts report, which is less time-consuming to produce and thus
reduces the risk that the unit will waste time creating a Target Profile
that does not meet the requester’s needs.

       Additionally, we found that the policies governing requester contact
may no longer reflect current practices. According to the OFC Charter,
“the OFC will not have contact with the field [requester] directly. It shall
be the responsibility of SOD to regularly communicate to OFC personnel
the results of action taken on OFC-produced intelligence products,
including investigative leads.” Similarly, the OFC’s 2005 Standard
Operating Policy and Procedures states that SOD is solely responsible for
receiving, documenting, and tracking all field inquiries for OFC products,
and forwarding those inquiries to the OFC for the development of the

U.S. Department of Justice                                               35
Office of the Inspector General
Evaluation and Inspections Division
product, at least suggesting that only SOD should communicate with the
requester regarding OFC product requests.44 However, we found that in
practice the responsibility for communicating with requesters to tailor
products to requesters’ needs rests with the Intelligence Analysts and
Desk Officers at the OFC, not SOD.

       Recommendation

       We recommend that the OFC:

       9.	    establish written protocols on how to process product
              requests if OFC staff members are unable to establish
              contact with the requester within a reasonable period of
              time.

The OFC does not obtain meaningful feedback and data from users.

       The OFC does not have an effective system for gathering
meaningful feedback and data on the value of individual products and
the results of their use. The OFC collects feedback through a survey that
is e-mailed to the user along with the finished product. The survey
contains four multiple-choice questions and provides an opportunity for
general comments and suggestions. This survey is designed to gather
information on the product, such as the utility of the product, the overall
value of the product, and the requester’s satisfaction with the
information included in the product. However, we found that users
rarely complete the survey unless the OFC analyst or Desk Officer who
developed the product calls the users directly to ask for their response.
In addition, users receive the survey before they typically can know
whether the products assisted their investigations. Moreover, when we
asked Intelligence Analysts how well they believe the products are
meeting the needs and expectations of the field, they told us that they
did not know because they seldom hear from the requester after a
product has been disseminated. These Intelligence Analysts said that
obtaining information as to whether the products they created were
useful and whether the requester already had some of the information
would assist them to be more efficient when creating future products.



       44 The OFC’s 2005 Standard Operating Policy and Procedures and OFC Charter
contain additional language to suggest that only SOD should communicate with the
requester. For example, according to the Standard Operating Policy and Procedures,
SOD is responsible for communicating actions taken by the field resulting from the OFC
product.


U.S. Department of Justice                                                         36
Office of the Inspector General
Evaluation and Inspections Division
      One OFC unit, the Proactive Asset Targeting Team Unit, has
attempted to obtain outcome-based data about its products by checking
the asset seizure and forfeiture tracking systems used by the
Departments of Justice and Treasury to ascertain whether the
investigations supported by its products resulted in any asset seizures.45
However, we believe that because OFC products are typically just one of
many resources that investigators used in an investigation, these
outcomes can only be used as an indirect measure of a product’s
usefulness, and therefore may not provide OFC with sufficient feedback
to improve its products and processes.

        We determined that other, more direct sources of feedback may be
available to the OFC. For example, the OFC could use information
reported by OCDETF about its investigations. OCDETF investigation
information is contained in interim and final reports the OCDETF
Program asks investigators to file. The Program specifically asks
investigators to describe how the OFC product assisted their
investigations. We reviewed the reports for 39 OCDETF investigations
that were closed in FY 2011 in which the investigator noted in the final
report that an OFC product was received during the investigation. In
23 of the 39 cases, the report provided detail about how the product’s
information was applied to the investigation. Sixteen of these reports
described how the OFC product had assisted the investigation by
providing useful information or by corroborating other, specific types of
information. For example, seven products identified associates, five
products provided border crossing information linked to the
investigation, three products corroborated confidential source
information, and three products provided information on businesses
affiliated with the target.46 In other cases the reports described how the
OFC information did not help or was duplicative of information the user
already had. We believe this and similar information from the OCDETF
reports could help OFC staff identify ways to improve future products.

       45  Proactive Asset Targeting Team (PATT) products are similar in content and
structure to Target Profiles but are created proactively by the OFC instead of in
response to requests from the field. They also include detailed tables showing
potentially illegal financial transactions and include templates of affidavits that
investigators may use in attempting to seize assets. See Appendix I for more
information on PATT products.

       46 The border crossing information was obtained from Customs and Border
Protection. At the time our review, however, the OFC did not have access to this data
because Customs and Border Protection was no longer an OFC partner agency. In our
interviews, several OFC staff members and product users noted the importance of the
border crossing information in OFC products. In FY 2013, the OFC re-established a
partner relationship with the agency.


U.S. Department of Justice                                                             37
Office of the Inspector General
Evaluation and Inspections Division
      Our interviews with investigators and analysts who had requested
OFC products also resulted in specific feedback on how the products
provided value and supported investigations. We found that:

       	 OFC products often provide new investigative leads and
          information about the targets submitted for research. In most
          cases, the product added to the investigator’s knowledge about
          the target of the investigation. Most of the investigators
          commented that the financial information in the OFC product
          was useful, and several stated that the information assisted
          them in obtaining subpoenas or seizures of cash and property.
          Furthermore, in a sample of 31 OFC Target Profiles, we found
          that the OFC provided information on 85 of 98 targets.47

       	 OFC products can facilitate deconfliction and communication
          among investigators from different agencies. For example, 19 of
          the 30 users we interviewed stated that the Target Profiles they
          received identified at least one open or closed linked
          investigation they had been unaware of: 2 users stated that the
          OFC had identified a linked investigation within their agencies
          that they had not known about, 14 users stated that the OFC
          had identified a linked investigation conducted by another
          agency, and 3 users stated that the OFC identified linked
          investigations in both their own agencies and another agency.

       	 The OFC is the only source of certain investigative and financial
          information for some investigators. Even when investigators
          have another source for information, the OFC sometimes
          provided more current, complete, or better analyzed
          information. For example, several users with access to FinCEN
          information told us they still valued the FinCEN information in
          the Target Profiles because the OFC’s presentation of the
          information was unusually clear and it identified the FinCEN
          reports that were most relevant to the investigation.
          Investigators who had alternative methods of obtaining
          investigative or financial information also said that they
          preferred OFC products, either because requesting the OFC
          product saved them time or because the OFC product combined
          information from multiple sources into one document.




       47  See Appendix I for the types of information the Target Profiles provided on the
targets included in these requests.


U.S. Department of Justice                                                             38
Office of the Inspector General
Evaluation and Inspections Division
       We believe that gathering similar feedback from requesters after
the investigations are completed could help the OFC identify information
that it could use to improve its products and services.

       Recommendation

       We recommend that the OFC:

       10.	   develop and implement product feedback mechanisms that
              will enable the OFC to gather substantive information on
              how the products contributed to investigations, including
              suggestions for improvement.




U.S. Department of Justice                                            39
Office of the Inspector General
Evaluation and Inspections Division
                 CONCLUSION AND RECOMMENDATIONS 



       OFC management took actions during this review that created
difficulties for the OIG in obtaining information directly from OFC
employees and ensuring that interview responses were candid and
complete. We had issues in obtaining documents directly from OFC
personnel. Furthermore, and of great concern to us, two FBI employees
detailed to the OFC reported to us that they were subjected to retaliation
by the OFC Director after they met with OIG inspectors during this
review to describe their concerns about the OFC’s operations. The OIG
recently completed its review of these retaliation allegations and
concluded that there were reasonable grounds to believe that personnel
actions were taken against these employees in reprisal for their protected
disclosures. We have referred our findings to the appropriate authorities
for adjudication and resolution under applicable law.

      Given these troubling actions, we cannot be sure we obtained
complete information from or about the OFC or that other OFC
employees may not have been deterred from coming forward and
speaking candidly with us. The results of our review reflect the findings
and conclusions that we were able to reach based on the information
that was made available to us.

      The OIG found deficiencies in the OFC that could limit its
contribution to the OCDETF Program’s effectiveness. During the period
of our review, disagreements and tensions existed between OFC
leadership and FBI employees with regard to the OFC’s operations. This
strained relationship created an uncooperative working environment that
culminated in the OFC suspending all FBI employees’ access to the OFC
database for approximately 6 weeks, which inevitably harmed the
operations of the OFC.

       We also found that the OFC needs to improve its work
prioritization and information sharing procedures if it is to fully
accomplish its mission to enhance the effectiveness of the OCDETF
Program. Of particular importance, the OFC must find ways to prioritize
its support to investigations linked to high-value drug trafficking targets,
such as Consolidated Priority Organization Targets.

       Also, OFC product users are not fully benefitting from the OFC and
SOD partnership because the two centers have not addressed problems
in how they coordinate their efforts. The OFC is not entirely responsible
for the management of the OFC product workflow process, but rather is
dependent upon SOD for critical workflow functions. We found that OFC

U.S. Department of Justice                                                40
Office of the Inspector General
Evaluation and Inspections Division
personnel working at SOD often have responsibilities unrelated to
processing OFC products that sometimes conflict with the priorities of
the OFC, which prevents the OFC from ensuring a timely response to
requests for information.

      In addition, the OFC and SOD have not adequately defined
whether and how SOD may appropriately use SOD communications
data, which is not available to the OFC, to enhance the intelligence value
of OFC products. Furthermore, the OFC is unable to reliably collect and
track OFC product workflow data from SOD.

      Further, according to an OFC official, investigators are not always
aware of the circumstances under which they may share OFC products
with federal prosecutors. Additional guidance on this matter could better
coordinate and strengthen drug and related financial investigations and
prosecutions.

       The demand for OFC products and the complexity of the products
is increasing, and the OFC plans to analyze data more proactively,
introducing further complexity to the OFC’s products and processes.
The increasing workload of the OFC underscores the importance of
operational efficiency.

       However, we identified workflow inefficiencies that can diminish
product quality and timeliness. For example, we found that OFC
member agencies had left several Intelligence Analyst positions vacant for
long periods of time and had detailed to the OFC new Intelligence
Analysts who lacked investigative experience in the field. We found that
the OFC product approval process can be prolonged because approval
standards are inconsistent and products are too often disapproved for
minor, non-substantive reasons. Further, there is no policy informing
OFC staff members what to do when they are unable to confer with
requesters, leading to inconsistencies among OFC operating units. Also,
although we found that OFC products may provide useful information to
investigators and prosecutors, the OFC has not established an effective
mechanism for gathering meaningful feedback and data on the value of
OFC products and how best to improve them. We believe that it is
important for the OFC to address these problems now so that it can
reliably meet the needs of investigators in the future.




U.S. Department of Justice                                               41
Office of the Inspector General
Evaluation and Inspections Division
      To ensure that there is an effective working relationship between
the agencies and components that manage and staff the OFC, we
recommend that the Office of the Deputy Attorney General:

       1.	 evaluate the structure of the OFC and the procedures for
           appointment of its management and staff to determine if
           modifications are appropriate to ensure efficient and
           cooperative operations.

      To improve the efficiency and effectiveness of OFC operations and
the usefulness of its analytic products, we recommend that the OFC:

       2.	 establish procedures to identify and prioritize requests in
           investigations with a nexus to high-value drug trafficking and
           money laundering targets, such as targets linked to CPOTs and
           their associates;

       3.	 develop guidance clarifying that the CPOT unit’s primary focus
           is to support CPOT-linked investigations and to compile
           intelligence on the CPOT organizations on behalf of the
           OCDETF Program;

       4.	 work with SOD to define the management and workflow
           responsibilities of the OSF section, including what actions the
           OSF section can and should take to allow appropriate
           information sharing between SOD and the OFC and increase
           the intelligence value of OFC products;

       5.	 improve the capabilities of its product workflow system or
           make other process improvements to collect accurate product
           workflow data on product requests and disseminations
           processed by the OSF section at SOD;

       6.	 modify the warning statement on OFC products and provide
           additional guidance to make clear the conditions under which
           investigators may show the products to federal prosecutors;

       7.	 work with its member agencies to revise its staffing agreements
           to further encourage member agencies to assign experienced
           Intelligence Analysts to the center and minimize vacancies in
           Intelligence Analyst positions;

       8.	 develop and implement consistent approval standards for OFC
           products and explore ways to further streamline the approval
           process;

U.S. Department of Justice                                                42
Office of the Inspector General
Evaluation and Inspections Division
       9.	 establish written protocols on how to process product requests
           if OFC staff members are unable to establish contact with the
           requester within a reasonable period of time; and

       10. develop and implement product feedback mechanisms that will
           enable the OFC to gather substantive information on how the
           products contributed to investigations, including suggestions
           for improvement.




U.S. Department of Justice                                             43
Office of the Inspector General
Evaluation and Inspections Division
                APPENDIX I: ADDITIONAL BACKGROUND 



      This appendix provides information about the OFC’s partner
agencies and organizations, budget and staffing, customers
(“requesters”), and products.

OFC Partner Agencies and Organizations

      As shown in Table 1 below, the OFC had partnerships with
25 agencies and organizations as of November 2013. All of these
agencies and organizations support the mission of the OFC by providing
data to the center. Of the 25 partner agencies and organizations, 19 are
OFC member agencies. In addition to providing data to the center, OFC
member agencies provide personnel to the OFC. OFC member agencies
can also recommend or request that specific management or operational
issues be addressed by the OFC Director.




U.S. Department of Justice                                            44
Office of the Inspector General
Evaluation and Inspections Division
 Table 1: OFC Partner Agencies and Organizations, November 2013

                                                                         OFC
  Agency or Organization
                                                                        Member

  Department of Commerce                                                   
  Department of Homeland Security                                          -
    Coast Guard*                                                           
    Customs and Border Protection                                          
    Immigration and Customs Enforcement                                    
    Secret Service                                                         
  Department of Justice                                                    
    Bureau of Alcohol, Tobacco, Firearms and Explosives                    
    Drug Enforcement Administration                                        
    Federal Bureau of Investigation                                        
    Federal Bureau of Prisons                                              -
    U.S. Marshals Service                                                  
  Department of Labor, Office of Inspector General                         
  Department of State                                                      -
    Bureau of Consular Affairs                                             -
    Bureau of Diplomatic Security                                          
  Department of the Treasury                                               -
    Financial Crimes Enforcement Network                                   
    Internal Revenue Service Criminal Investigation                        
  Postal Inspection Service                                                
  Multi-Agency Organizations                                               -
   Baltimore/Washington High Intensity Drug Trafficking Area               -
   El Paso Intelligence Center                                             -
   International Organized Crime Intelligence and Operations Center        
   Southwest Border Anti-Money Laundering Alliance                         -
  Foreign Agencies                                                         -
   Australian Federal Police                                               
   New Zealand Police                                                      
   United Kingdom National Crime Agency                                    
   Note: The Departments of Homeland Security and State are not themselves

   members of the OFC, though the components listed for them above are. 

 * According to the OFC, the Coast Guard stopped providing data and personnel to the
   center in September 2007 and September 2008, respectively.
   Source: OFC.


Budget and Staffing

      The OFC received a total of $29.6 million in operational funding
from three different sources in FY 2012. The Interagency Crime and
Drug Enforcement (ICDE) appropriation account provided $23.7 million.
The Department of Justice Assets Forfeiture Fund and the Treasury
U.S. Department of Justice                                                       45
Office of the Inspector General
Evaluation and Inspections Division
Forfeiture Fund administered by the Department of the Treasury
provided $3.2 million and $2.7 million, respectively. Salaries for
contractors at the OFC are paid by either the two asset forfeiture funds
or from the ICDE appropriation. Personnel detailed to the OFC by
member agencies that have reimbursable positions have their salaries
reimbursed out of ICDE funds. Salaries for detailed personnel with non-
reimbursable positions are paid by their home agency.48

       As of July 2013, the OFC had 195 staff members, 81 of whom were
contractors, while the rest were detailed from the OFC’s member
agencies through reimbursable agreements with the OCDETF Executive
Office. Many of the contractor positions support the development and
management of the OFC’s information technology systems. OFC member
agencies also hire contractors to fill some of the Intelligence Analyst
positions.49 Among the OFC member agencies, the DEA and FBI detailed
the majority of the staff positions to the OFC, providing 60 and 27
detailees, respectively. ICE provided 7 detailees, the USMS provided 4,
and the other 10 member agencies provided between 0 and 3 detailees
each.50

       The OFC’s fundamental staffing positions include:

       Intelligence Analyst: Intelligence Analysts are the only OFC
employees that research and write OFC’s intelligence products on a daily
basis. Intelligence Analysts directly interact with OFC requesters in the
field to assess what information should be included in products.
Intelligence Analysts are given discretion to tailor the content of each
product according to the needs of the requester. As of July 2013,
73 Intelligence Analysts were working at the OFC.

     The primary research tools Intelligence Analysts use to develop
products include the OFC database, information found in member

       48  As of October 2012, 97 of the 121 personnel detailed from OFC member
agencies held reimbursable positions (80 percent). All Bureau of Alcohol, Tobacco,
Firearms and Explosives, DEA, and FinCEN positions were reimbursable. Also
reimbursable were 29 of the 30 FBI positions; 3 of the 4 U.S. Marshals Service
positions; 2 of the 5 Department of Justice positions; and 1 of the 7 Internal Revenue
Service Criminal Investigation positions. None of the other member agencies had
reimbursable positions.

       49  As of July 2013, the DEA and ICE employed 17 and 8 contractors to work as
Intelligence Analysts at the OFC, respectively.

       50 As of July 2013, the Coast Guard was the only member agency that did not
provide staff resources to the OFC.


U.S. Department of Justice                                                           46
Office of the Inspector General
Evaluation and Inspections Division
agencies’ databases that are referred to as “legacy” databases, and open
source information. The OFC database ingests and fuses together the
investigative and regulatory information and intelligence provided to the
OFC by its partner agencies and organizations. Within the OFC
database, OFC analysts can search multiple datasets from a variety of
sources through a single data system, analyze the search results, and
compile the relevant intelligence into a single OFC product.

       Desk Officer: Desk Officers are Special Agents detailed to the OFC.
In combination with Unit Chiefs, they review and approve OFC products
to ensure that the intelligence contained in products produced by
Intelligence Analysts is accurate and releasable to the field. Desk
Officers draw upon their field experience and investigative perspective to
assess what intelligence should be included in products. They also work
with Intelligence Analysts to contact the requesters to determine what
intelligence is needed in the products. As of July 2013, there were
15 Desk Officers working at the OFC.

      Unit Chief: Unit Chiefs are Supervisory Intelligence Analysts. In
combination with Desk Officers, they review and approve OFC products
produced by Intelligence Analysts. In addition, Unit Chiefs are
responsible for ensuring Intelligence Analysts are trained in the
appropriate techniques for researching and writing OFC products. As of
July 2013, there were eight Unit Chiefs working at the OFC.

      Section Chief: Section Chiefs supervise one or more units within
the OFC. They are responsible for the overall timeliness and quality of
products developed in their units. In addition, they ensure that staff
within their section are trained in the appropriate tools and techniques
best suited for OFC activities. As of July 2013, there were five Section
Chiefs working at the OFC.

       Special Agents and Intelligence Analysts in the OSF Section at
SOD: The OSF section’s Special Agents and Intelligence Analysts receive,
review, and track incoming OFC product requests, and forward them to
the OFC. They are also responsible for deconfliction between
investigations relating to OFC products and active SOD operations. They
also review and approve OFC products and disseminate products to
requesters. As of July 2013, the OSF section had 10 Special Agents
(including the Assistant Special Agent in Charge of the OSF section) and
5 Intelligence Analysts.




U.S. Department of Justice                                              47
Office of the Inspector General
Evaluation and Inspections Division
Requesters

      Table 2 provides a complete breakdown of FY 2012 product
requests made to the OFC by agency of the requester.

      Table 2: Number of Product Requests by Agency, FY 2012
                                                           Number of
  Agency                                                                 Percentage
                                                            Product
  (by Share of Requests Made)                                             of Total
                                                           Requests
  Drug Enforcement Administration                               2,009         42.9%
  Immigration and Customs Enforcement                             843         18.0%
  Federal Bureau of Investigation                                 772         16.5%
  Internal Revenue Service Criminal Investigation                 240          5.1%
  U.S. Marshals Service                                           229          4.9%
  Postal Inspection Service                                       210          4.5%
  Bureau of Alcohol, Tobacco, Firearms and Explosives             172          3.7%
  Secret Service                                                   69          1.5%
  United Kingdom National Crime Agency                             57          1.2%
  Department of State, Bureau of Diplomatic Security               53          1.1%
  Department of Labor, Office of Inspector General                 28          0.6%
  OCDETF Fusion Center                                              1          0.0%
  Total                                                         4,683        100.0%
 Note: The table shows product requests by the agency of the requester. However,

 requesters may also request products on behalf of multi-agency investigative task 

 forces, such as OCDETF Strike Forces. 


 Source: OIG analysis of OFC data.

OFC Products Available to Requesters

       Target Profile: This is a customizable intelligence product that
aggregates and analyzes information about specific individuals or
organizations using all intelligence sources available to OFC Intelligence
Analysts. Examples of target information in a product include
biographical information, organizational structure, criminal associates,
family members, financial information, investigative links between cases,
businesses, as well as other information identified that might be useful
to the requester. The OFC will tailor the report to meet the needs of the
requester. The Target Profile is the most frequently requested product,
and accounted for 2,529 (75 percent) of the 3,364 total products
generated by OFC in FY 2012.

      In a sample of 31 Target Profiles that provided requested
information on a total of 98 targets, we found that the OFC provided
information on 85 of the targets. Figure 9 shows the types of information
provided.
U.S. Department of Justice                                                             48
Office of the Inspector General
Evaluation and Inspections Division
                                                             Figure 9: Information OFC Products Provided on 

                                                                     Requested Targets in OIG Sample 


                                                                                Linked Investigations                                                             80
                                                                        Biographical/Identifying Data                                                         78
  Type of Information Included  in Target Profiles




                                                                                          Addresses                                                     68
                                                                               Financial Information                                         48
                                                     Family Member/Associate Identifying Information                                     45
                                                                                    Communications                                      41
                                                                                              Assets                      21
                                                                                      Miscellaneous                      19
                                                                      Corporate/Business Affiliations                    17
                                                                                            Firearms                11
                                                                            Business Identifying Data           7
                                                                                Professional Licenses           6
                                                                                     Criminal History       3

                                                                                                        0   10       20       30   40    50       60   70    80    90
                                                                                                      Number of Targets for Which Type of 
                                                                                                   Information Was Included in Target Profiles

Note: Miscellaneous includes additional relevant information not presented elsewhere
in the product, such as National Insurance Crime Bureau reporting and Department of
State Nonimmigrant Visa information and Immigrant Visa information.
Source: OIG analysis of a sample of 31 Target Profiles.

      Cases and Contacts: This is a list of contacts in all agencies that
have relevant investigations on the requested target. The Cases and
Contacts may also identify the name, location, case number, case agent,
and agent contact information from each relevant investigation to open
communications among investigators or analysts who appear to be
investigating the same or related targets. The Cases and Contacts
product accounted for 290 (9 percent) of the 3,364 total products the
OFC generated in FY 2012.

      Proactive Asset Targeting Team products: Established in 2010, the
PATT products are similar in content and structure to Target Profiles but
are created proactively by the OFC instead of in response to requests
from the field. They are initiated when a computerized process finds a
match between new FinCEN suspicious activity reports indicative of
money laundering and any open federal investigation. OFC analysts
U.S. Department of Justice                                                                                                                                             49
Office of the Inspector General
Evaluation and Inspections Division
then contact the investigators associated with the open federal
investigations and offer to analyze the information. PATT Intelligence
Analysts can produce a product that contains detailed tables showing
potentially illegal transactions and include templates of affidavits that
investigators may use in attempting to seize assets. In FY 2012, the OFC
produced 615 PATT products (24 percent of the 2,529 Target Profiles the
OFC generated in FY 2012).

       Initial Case Review: This is a list of federal investigations that may
be linked to the requester’s investigation or targets. The Initial Case
Review, unlike other OFC products, does not contain details explaining
ties between the case and the requested target. The OCDETF Program
requires requesters seeking OCDETF resources to request an Initial Case
Review. Initial Case Reviews accounted for 390 (12 percent) of the 3,364
total products the OFC generated in FY 2012.51




       51  Prior to April 2012, the OFC produced Rapid Enforcement Reviews instead of
Initial Case Reviews. A Rapid Enforcement Review provided the requester with a
snapshot of which agencies might possess information on the submitted targets, but
did not list investigations that might be linked to the requester’s investigation or target.
The Rapid Enforcement Reviews accounted for 155 of the 3,364 products generated by
the OFC in FY 2012 (5 percent of all products).


U.S. Department of Justice                                                               50
Office of the Inspector General
Evaluation and Inspections Division
                     APPENDIX II: LIST OF ACRONYMS 



 CPOT            Consolidated Priority Organization Target
 DEA             Drug Enforcement Administration
 FBI             Federal Bureau of Investigation
 FinCEN          Financial Crimes Enforcement Network
 FY              fiscal year
 ICDE            Interagency Crime and Drug Enforcement
 ICE             Immigration and Customs Enforcement
 IOC-2           International Organized Crime Intelligence and
                 Operations Center
 OCDETF          Organized Crime Drug Enforcement Task Forces
 OFC             OCDETF Fusion Center
 OIG             Office of the Inspector General
 OSF             OCDETF Fusion Center section at SOD
 PATT            Proactive Asset Targeting Team
 SOD             Special Operations Division




U.S. Department of Justice                                        51
Office of the Inspector General
Evaluation and Inspections Division
        APPENDIX III: OCDETF RESPONSE TO DRAFT REPORT 





                                                                          U. . De pa rtm ent of Justice

                                                                          Office o f the Deputy Attorney General



          Auocwie Dep ul) Allorney General                                                h mhmglon, D t   2WJO
          Director for the Orgam:ed Cr~mt Drug Enforcemelll Task Forces


                                                                              March 14, 20 14

          MEMORA DUM

          TO:               Nina S. Pelletier
                            Assistant Inspector General
                            Evaluations and Inspections

          FROM :            James II. Dinan~
                            Associate Deput~ AtYorney General
                            Director, OCDETF

          RE:               Comments on the Final Report of the Review of the Organized Crime Drug
                            Enforcement Task Forces Fusion Center. Assignment umber A-20 12-002


                  The Organized Crime Drug Enforcement Task Forces (OCDETF) Executive Office has
          reviewed the Department of Justice (DOJ) Office of Inspector General's (OIG) draft report
          entitled: Review ofthe Organi=ed Crime Drug Enforcement Task Forces Fusion Center,
          ass ignment Number A-2012-002 (hereafter, " Report"). The Department concurs with
          Recommendation # I.

                  The OCDETF Executive Office concurs with Recommendation # I. with exceptions.
          The OCDETF Executive Office concurs wi th Recommendations #2 - # I 0. Please find enclosed
          the detailed response form the OCDETF Executi ve Office. If you have any questions. please
          contact OCDETF Deputy Director Thomas Padden at Thomas. Padden@usdo j.gov or at
          (202) 514-0922.

          Attachments




U.S. Department of Justice                                                                                         52
Office of the Inspector General
Evaluation and Inspections Division
      0CJ)ET17 rc~ po•n scs to dw OlG t.•econunendations •·e: Review of the O rganized Caimc Dt'Ug
      Entor ccJncnt Tnsk Fot•ccs Fusion C<'nf<'l', assignmcnt. Numbct· A -2012-002

      Detailed Conm1ents from the OCDETF Executive Office.

      OIG Reconm1endation to ODAG ~

      " We recommeudllhat the 001\G:

      To ensllte that 1her·e is an effective working rdationsh ip between the agencies and components
      that manage and statl'the OFC, we recommend that the ODAG:

      1. Evaluate the :sh·uctul'e of the O FC and the procedm·es fm· appoinhnent o f its
      managemen t. a111d s taff to detet"Jnine if m odification s a r e ap propriat.e to ensm oc efficient an d
      coop emtive operations.''

                OCl)ET'F con cm-s, with exception: Ah.hougb the OCDETF Executive Office co.ncurs
      with the 1'CC(,)IlUllCt1daljon~ We disagree with the QfG regarding the facts SlllTOUOolfing seVeral of
      its sta tem ents made in the ftnal report. Further we disagree with the OIG regarding the inclusjon
      of certain investigati ve m atters that arc factually mcomplete, have- 11ot yet beou atdjudicated, or
      are not relevant

             First, the OCDETF Executive Otfi ce dif;agrees with the assertion that OFC maJlagement
     created diftlculti•es for the OlG review team to o btain in.fonnation from OFC employees. At the
     begi.Juung of the~ 010 review, OFC and OCDETF \eade1·ship met w itb the OI(J Review Team to
     set up an agreed upon su·ucture that ensured complete responsiveness to OlG infonnation/data
     requests and complim1ce with the numerous memoranda of LU1dcrsttu1di.ng tbat g•ovemed the use
     of infom1ation owned by the memb~r ag~;.'UCies (some of which are from outside the Department
     of Justice. and the refore outs ide the authority of tl1e DOJ OIG). The OFC's m ell'lhership is made
     up of Depa.iment of Justice, Department of Homeland Secw·ity and Department of Treasury
     agencies, and the: O FC operates under· specific agreements with the agencies tha;t provide their
     data to the Center. 1l1ese facts were represented to the DOJ OIG by the OCDETF Executive
     OLlicc in U1e earl.y discussions ofihis review. A prouess was set up \ViU1. <ind <~greed to by, the
     OIG Review Te~un that wo uld allow for a s ingle point of' contact to coordinate the OFC response
     to O TG requests for data/infonnatio n and for the non-DOJ agencies to penn it their staff t o be
     interviewed. (See attachment if 1)

              OCDETF made every cffQrl to provide any iufoml&li!Jn rcque~tcd by tho OIG review
      team and allowed the review team to have full access to OFC employees, the Center m1d its data.
      CWC and OCDE'n' tUanag.:nwnt responded lo nearly 200 ~'"'quests documented jin c mil.ils from
      the OIG review team. The OlG Review Team., howev<}r, never notified OCDETF or OFC
      management wifh concems regarding no'! receiving complete information during the more thau
      30 months that the OIG spent conducting their review. The O IG review team did receive
      numerous documents directly from OFC employees. Despite the process that haod been agreed
      upon, the 010 Review Team never nttetnpted to resolve any issues and never stated that
      additional infonnation was needed from OCDETF to satisfactorily complete tbe.ir review.


                                                    Page 1 of4




U.S. Department of Justice                                                                                        53
Office of the Inspector General
Evaluation and Inspections Division
      Additionally, when asked by the OCDETP Executive Ofiice during the OIG exit interview_ the
      OlG declined lo provide exatnples of the alleged non-compliance with requests for
      data/information and declined to indicate what infonnation was withheld.

             Second. the OCDETF Executive Office di~agrees with the Repott'~ description that a
     "strained" rehuiouship between FBI persoJmel detailed to the OFC and OFC Leadership was the
     genesis oflhe disagreement betweun Uhl FBI and the OCDETF Executive Ofi'ice and oU1er OFC
     member agencies. Tn fact, the dir-;agreement pertained to the ur-;e and structure of OCDETF­
     funded positions at the OFC that are govemed by memoranda of\l.ttderstanding ;md the <..WC
     Charter. (See attachments #2 aud #3 ). ·rbe fBl viewed its pers01mcl detailed to lill OCDETP­
     fuuded positions at tho OFC as fUl resources op~:rationaliy answerable l,o its agency ch.ain of
     command to perfom1 FBI-specific missions. The OCDETF Executive Office viewed agency­
     detailed personnel filling OCDETF-funded positions at the OCDETF Fu<:ion Center ao;
     operatiouaUy 1mswerable to the commingled OCDET!i chain of comm1Hld to pedonn the
     overarcbing OCDETF mission, which is assigned to its member agencies. O!he·r OFC member
     agencies coJtcurred witltthe view of the OCDETF Executive Office.

              'Third, the OCDETF Executive Office disagrees with the i.nc.:lusion of several
     investigative matters that arc not relevant, are not factually complete, or arc not yet adjudicated.
     Tite first of these instances is at Footnote 17 on Page 11 of the Repo11. The matters reported in
     this footnote are not relevant and are not factually complete. Thet'e is no indication that the
     event~ reported i11 this footnote are tel evant in ml y way to the infotmation in the paragraph to
     which this tootnote is nnached. ' n1ese allegations did not have anything to do wiU1 the
     urformation flow from the OFC to the OIG during the course of this review. The footnote also
     fails to inc lude the fact that the investigation tailed to suppott administrative action agaitlst tlte
     Departme nt official. Upon application and consideration ofthe Douglas Factors, a<; required by
     law, administrative action was not supported by the l~1cts . Accordingly, additional training in
     contract management and the coutmcting process was ordered, and was completed by the
     Departme.nt official. The inclusion ofthe infonnation in this footnote is inappropriate and
     in·elevant to the Review.

              Additionally, the OCDETF Ex:ecuti ve OU'ice disagrees with the inclusion of rcfer(>J1Ces to
     the two Whistlehlower investigations in this Review Report. Because the adjudication process
     for the.se investigations has not yet been completed mtd, therefore, the facts have not yet been
     fhll y developed. it is premature to include these references. Uecause all parties have not yel been
     able to present comple1e ~:vidum:e, inclusion of01cse matters makes lhc Report factually
     incomplete. Revi.:w of the referenced OIG Whistlcblowcr investigation reports by the OCDETF
     Executive Office indicates ·that these reports are factually incorrect in pmt, and pruticularly
     regarding the establislunent of the infonnation sharing process created by agreement between the
     OFC and the OIO review Team.




                                                   Page 2 of4




U.S. Department of Justice                                                                                     54
Office of the Inspector General
Evaluation and Inspections Division
      OIG Rcconune,ndations to OCDETl':

      "We recommend!that the OFC:

      To improve the efficiency and effectiveness of OFC operations aud the usefulness of its analytic
      pwduuls, we rec~Jmmend thallhc OFC:

      2. Establish pr·occdut·es to identify and primitizc pr·oduct requests with a nc~xus to hj~h
      value dt'Ug tl'llfi'icking and money launder;ng tar•get~. s uch as tar·gets linked to C POTs and
      their assodatt>S;"

               OCDET:F concurs: TI1e OFC is in the process of implementing an updated product
      prioritization model. This modd is outlined in a Standard Operating Procedure (SOP) document
      that is currently in drall revi..:w. The OFC <mticipatcs djsscminulion of the SOP by the 3 rd qu;u·ter
      ofFY 14.


      ''3. Develop ~tit~aoce clarityin~ that the CPOT Unit's pdmary focus is to support Cl'OT
      linked investigations and to compile intelligence on the CPOT organization!• on behalf of
      the OCDF.TF Pmgram;"

              OCDRTF concurs: The OFC is providing11pdating guidance for the CPOT unit by
      bringing up-to-di3te the CPOT's mission statement 11H~ updated mi~~ion stateml!nt is planned for
      release in the 3rd qunt1er of FY 14.


      " 4. Work with SOD to define the management and wm·kflow responsillilitiE•s of the OSF
      section, itu:luding what actions the OSF scct_iou can a11d shouJd take to allow appn>pJi.ate
      infommtion shatting between SOD and OFC and incr-ease the intelligence value of OFC
      produds;"

              OCDETl' concurs: In coordination with SOD tl1e OFC will ensure that tbe numage•uenl
      and worUlow re!SpOnsibilities arc document~o:d in an SOP. This SOP js planned for release in the
      4u1 quarter of FY 14.


      "5. lmp••ovt• tht•' t·apabiJities of' its produc:t wor·kJlow system or make other JH'OCl'SS
      improvements to collect accurate produd worktlow data on product requ~tt:; and
      disseminations Jlli'Ocessed by the OSF section at SOD;"

             OCDET:F concurs: ln February 2013 01e OFC changed the approval process for OFC
      products in an effm1 to improve the OFC product workt1ow system. This change: was pilot for 90
      days and became; permanent in June of2013. (See attachment # 4).




                                                   Page 3 of4




U.S. Department of Justice                                                                                     55
Office of the Inspector General
Evaluation and Inspections Division
      "6. .ModiJY the waming stntemcot on OFC pToducts and provide ndditionnl guid:mcc to
      makt? clc..-.r tJ1c eonditions under whkh investigators may show the produets to fNiel'nl
      pl'Osecutors: ''

              OCD.E.Tlf cQn curs: ln coordination w ith the OCD ETF Execntiw Office the O FC will
      prov ide updated guidance on conditions inves tigators many show OFC p roducts to fede ral.
      prosecutors. This update in planned f or the 4!11 quarier ofFY 14.


      "7. Work witl1 its member agencies to revise its staffmg agreements to further encourage
      m ember agencies t.o~tssign expeJienced Intelligence Analysts to the center and minimize
      ' 'acancies in Intelligence Analyst positions;"

           OCDETF concw·s: In voo rdination wi th all OFC member agencies the OFC will rcvie \''
     the Memorandum of Understanding (MOU) agreements with ihe purpose of apprais ing staffing
     agreements at the OFC. 'n1is review will be completed by the first quat1er ofFY L5 .


      "8. Develop and implement eonsistent npp1·oval stand a1·ds fo•· OFC p•·o,lucts and explore
     ways to further streamline the approval process;"

             OCDRTF concurs: Tn Fehn1ary 201 3 the OFC changed 111e approv al process for OFC
      products in an eftb 11 to improve the O FC product workflow syste m. This change was piloted tor
      90 days and became permMJent in June of 201 3. Ple ase see me mo attached.


      " 9. Establisl1 written protocols on how to proeess p•·oduct requests ifOFC stafT mcmbeJ'S
      lll'C unable to cstabJish contact with the J'Cqoesterwithin n J'CilSOAablc pe•·iod of time; and,.

              OCOET F cnncm'S: "111e O FC is providing updating guidance fo r contacting t he field
      ha<>ed on a requested made to the O FC. ll1e draft of this SOP is cutTently being reviewed by the
      management stall at the OFC. TI1..: update d SOP is phumed fo r release in the 3rd quttrter of FY
      14.


      " 10. Develop and implement product fecdbnc.k mechanisms that wiU en.abJe the OFC to
      gather· subst.antive inform:ttion on how tht• products contribuh·d to invt'Stigutions,
      including sug~estions for improveJIIent."

             OCDET11' conctm;: rl11e OfC h as implemented updating gui(uum~ for collt;ctiug
      feedback based   0 11 an   OFC intelligence product sent to the fie ld. The memo o utlining this
      process was sent out in October of 20 l3. (See attaclunent #5).




                                                      Pagc 4 of4




U.S. Department of Justice                                                                                56
Office of the Inspector General
Evaluation and Inspections Division
         APPENDIX IV: OIG ANALYSIS OF OCDETF RESPONSE 



       The Office of the Inspector General provided a draft of this report to
the Office of the Deputy Attorney General and the OCDETF Executive
Office (OCDETF) for comment. OCDETF’s response is included in
Appendix III to this report. The OIG’s analysis of OCDETF’s response
and the actions necessary to close the recommendations are discussed
below.

OCDETF’s General Comments and the OIG’s Reply

       In its response, OCDETF stated that it disagrees with our assertion
that OFC management took actions that created difficulties for us in
obtaining information from OFC employees. OCDETF noted that the OIG
review team agreed with the OFC and OCDETF to establish a process
that would allow for a single point of contact to coordinate the OFC
response to OIG requests for information. It also stated that the OFC
made every effort to provide information requested by the OIG and that
the OIG review team never attempted to resolve any issues and never
stated that it needed additional information from OCDETF to
satisfactorily complete the review.

      During our review, OFC employees brought to our attention several
OFC management actions that we believe interfered with our ability to
obtain information directly from OFC employees. At the beginning of our
review, we attempted to resolve issues concerning our ability to access
information directly from OFC employees by requesting a meeting with
OFC management. We met with OFC management to address these
issues. However, we continued to have issues as detailed in the report,
and employees of the Department should always feel free to provide
information directly to the OIG, especially if they are reporting what they
reasonably believe to be evidence of wrongdoing. They should never be
subject to or threatened with reprisal for doing so.

       OCDETF also stated that we incorrectly concluded that the
strained working relationship between FBI personnel detailed to the OFC
and OFC leadership was the genesis of the disagreement between the FBI
and OCDETF and other OFC member agencies. Our report does not
ascribe the disagreement relating to the FBI’s compliance with its
obligations under the OFC program to the strained working relationship
between FBI personnel detailed to the OFC and OFC leadership. Instead,
we state that we were not able to assess whether the strained working
relationship between OFC leadership and the FBI resulted from issues


U.S. Department of Justice                                                57
Office of the Inspector General
Evaluation and Inspections Division
involving specific individuals, the structure of the management and line
staffing at the OFC, or a combination of these or other factors.

       Finally, OCDETF stated that it disagrees with our inclusion of
related investigative matters in the report and it stated that the
investigations referenced are not relevant, are not factually complete, and
have not yet been adjudicated. We believe that the misconduct
investigation and two whistleblower investigations we referenced are
relevant to the review. The misconduct investigation originated from a
complaint we received from an OFC employee during our review related
to the operations of the OFC. Similarly, the two whistleblower
investigations originated from concerns about the OFC’s operations that
two FBI employees detailed to the OFC brought to our attention. After
providing information to the OIG, these employees reported to us that
they were subject to retaliation by the OFC Director. The OIG completed
its review of the retaliation allegations and concluded that there were
reasonable grounds to believe that personnel actions were taken against
these employees in reprisal for sharing information with us. In the
report, we note that we have referred our findings to the appropriate
authorities for adjudication and resolution under applicable law.

Recommendation 1: The Office of the Deputy Attorney General
evaluate the structure of the OFC and the procedures for appointment of
its management and staff to determine if modifications are appropriate to
ensure efficient and cooperative operations.

       Status: Resolved.

     OCDETF Executive Office Response: OCDETF stated that the
Department concurred with this recommendation.

       OIG Analysis: Neither the Office of the Deputy Attorney General
nor OCDETF provided planned actions in response to our
recommendation. Please provide documentation on the status of this
effort by June 30, 2014.

Recommendation 2: The OFC establish procedures to identify and
prioritize requests in investigations with a nexus to high-value drug
trafficking targets, such as targets linked to CPOTs and their associates.

       Status: Resolved.

       OCDETF Executive Office Response: OCDETF concurred with
this recommendation. OCDETF stated it was in the process of
implementing an updated product prioritization model, which is outlined

U.S. Department of Justice                                               58
Office of the Inspector General
Evaluation and Inspections Division
in a standard operating procedure document currently in draft review.
The OFC anticipates disseminating the standard operating procedure by
the third quarter of fiscal year 2014.

       OIG Analysis: OCDETF’s planned actions are responsive to our
recommendation. Please provide documentation on the status of this
effort by June 30, 2014.

Recommendation 3: The OFC develop guidance clarifying that the
CPOT unit’s primary focus is to support CPOT-linked investigations and
to compile intelligence on the CPOT organizations on behalf of the
OCDETF Program.

       Status: Resolved.

       OCDETF Executive Office Response: OCDETF concurred with
this recommendation. OCDETF stated it planned to provide guidance to
the CPOT unit by updating the unit’s mission statement. The updated
CPOT unit mission statement is planned for release in the third quarter
of fiscal year 2014.

       OIG Analysis: OCDETF’s planned actions are responsive to our
recommendation. Please provide documentation on the status of this
effort by June 30, 2014.

Recommendation 4: The OFC work with SOD to define the
management and workflow responsibilities of the OSF section, including
what actions the OSF section can and should take to allow appropriate
information sharing between SOD and OFC and increase the intelligence
value of OFC products.

       Status: Resolved.

       OCDETF Executive Office Response: OCDETF concurred with
this recommendation. OCDETF stated it was coordinating with SOD to
ensure that the management and workflow responsibilities of the OSF
section are documented in a standard operating procedure. The
standard operating procedure is planned for release in the fourth quarter
of fiscal year 2014.

       OIG Analysis: OCDETF’s planned actions are responsive to our
recommendation. Please provide documentation on the status of this
effort by June 30, 2014.



U.S. Department of Justice                                            59
Office of the Inspector General
Evaluation and Inspections Division
Recommendation 5: The OFC improve the capabilities of its product
workflow system or make other process improvements to collect accurate
product workflow data on product requests and disseminations
processed by the OSF section at SOD.

       Status: Resolved.

        OCDETF Executive Office Response: OCDETF concurred with
this recommendation. OCDETF stated that in February 2013 the OFC
implemented a single-tiered approval process for the release of agency
information in OFC products. The new procedure eliminates the need for
the OSF section at SOD to review OFC products for the purpose of
approving the release of agency information. The approval process for
the release of agency information in OFC products is now conducted
exclusively by staff detailed to the OFC. After staff at the OFC approves
the OFC product, the product is transmitted to the OSF section, which is
responsible for disseminating the product to the requester and other
investigators with related investigations. The dissemination of products
is still governed by existing and approved caveats, procedures, and
protocols.

      OIG Analysis: OCDETF’s actions are partially responsive to our
recommendation. Although we believe that streamlining the product
approval process has some benefit, this action does not address our
recommendation to improve the capabilities of the OFC product workflow
system or make other process improvements designed to improve the
accuracy of product workflow data on product requests and
disseminations processed by the OSF section at SOD. Please provide
documentation on the status of efforts taken in this regard by June 30,
2014.

Recommendation 6: The OFC modify the warning statement on OFC
products and provide additional guidance to make clear the conditions
under which investigators may show the products to federal prosecutors.

       Status: Resolved.

       OCDETF Executive Office Response: OCDETF concurred with
this recommendation. OCDETF stated that it coordinated with the OFC
to develop guidance on conditions when investigators may show OFC
products to federal prosecutors. The OFC plans to complete the
guidance by the fourth quarter of fiscal year 2014.




U.S. Department of Justice                                            60
Office of the Inspector General
Evaluation and Inspections Division
       OIG Analysis: OCDETF’s planned actions are responsive to our
recommendation. Please provide documentation on the status of this
effort by June 30, 2014.

Recommendation 7: The OFC work with its member agencies to revise
its staffing agreements to further encourage member agencies to assign
experienced Intelligence Analysts to the center and minimize vacancies in
Intelligence Analyst positions.

       Status: Resolved.

       OCDETF Executive Office Response: OCDETF concurred with
this recommendation. OCDETF stated that the OFC, in coordination
with all OFC member agencies, will review the memoranda of
understanding between the OFC and its member agencies with the
purpose of appraising the staffing agreements. The OFC will complete
this review by the first quarter of fiscal year 2015.

       OIG Analysis: OCDETF’s planned actions are responsive to our
recommendation. Please provide documentation on the status of this
effort by June 30, 2014.

Recommendation 8: The OFC develop and implement consistent
approval standards for OFC products and explore ways to further
streamline the approval process.

       Status: Resolved.

        OCDETF Executive Office Response: OCDETF concurred with
this recommendation. OCDETF stated that in February 2013 the OFC
implemented a single-tiered approval process for the release of agency
information in OFC products. The new procedure eliminates the need for
the OSF section at SOD to review OFC products for the purpose of
approving the release of agency information. The approval process for
the release of agency information in OFC products is now conducted
exclusively by staff detailed to the OFC. After staff at the OFC approves
the OFC product, the product is transmitted to the OSF section which is
responsible for disseminating the product to the requester and other
investigators with related investigations. The dissemination of products
is still governed by existing and approved caveats, procedures, and
protocols.

      OIG Analysis: The OFC’s planned actions are partially responsive
to our recommendation. We believe that streamlining the product
approval process has some benefit and will likely reduce delay in

U.S. Department of Justice                                             61
Office of the Inspector General
Evaluation and Inspections Division
processing OFC products. However, this action does not address our
recommendation to develop and implement consistent product approval
standards for OFC products. Please provide documentation on the
status of this effort by June 30, 2014.

Recommendation 9: The OFC establish written protocols on how to
process product requests if OFC staff members are unable to establish
contact with the requester within a reasonable period of time.

       Status: Resolved.

       OCDETF Executive Office Response: OCDETF concurred with
this recommendation. OCDETF stated that the OFC plans to provide an
updated standard operating procedure for contacting requesters. OFC
management is currently reviewing the standard operating procedure,
which is planned for release in the third quarter of fiscal year 2014.

       OIG Analysis: OCDETF’s planned actions are responsive to our
recommendation. Please provide documentation on the status of this
effort by June 30, 2014.

Recommendation 10: The OFC develop and implement product
feedback mechanisms that will enable the OFC to gather substantive
information on how the products contributed to investigations, including
suggestions for improvement.

       Status: Resolved.

       OCDETF Executive Office Response: OCDETF concurred with
this recommendation. OCDETF stated that in October 2013 the OFC
issued new guidance for collecting OFC product feedback from
requesters. The guidance specifies the responsibilities of the Intelligence
Analysts, Desk Officers, and OSF section staff in the product feedback
process. The OFC also created a standard feedback form that the Desk
Officer is to use when gathering feedback from the requester and other
recipients of the OFC product. The form contains fields for identifying
the name of the requester or other OFC product recipient, the OFC
product number, the Desk Officer who worked on the product, and the
requester’s case number. It also contains seven multiple-choice
questions designed to gather information on the quality, relevancy, and
timeliness of the product, and includes a comment box.

      OIG Analysis: The OFC’s planned actions are partially responsive
to our recommendation. The guidance issued outlines the
responsibilities of the OFC staff members in implementing the OFC

U.S. Department of Justice                                               62
Office of the Inspector General
Evaluation and Inspections Division
product feedback procedures. However, the guidance does not instruct
the Desk Officer to gather substantive information from the requester or
other OFC product recipient on how the product contributed to the
investigation, including suggestions for improvement. Likewise, the
feedback form lacks instructions designed to solicit this information.
Please provide documentation on the status of this effort by June 30,
2014.




U.S. Department of Justice                                            63
Office of the Inspector General
Evaluation and Inspections Division
